<html>
<title> - PUBLIC-PRIVATE SOLUTIONS TO EDUCATING A CYBER WORKFORCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






        PUBLIC-PRIVATE SOLUTIONS TO EDUCATING A CYBER WORKFORCE

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                                and the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                       AND WORKFORCE DEVELOPMENT

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2017

                               __________

                     Serial Nos. 115-34 and 115-38

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





     Available via the World Wide Web: http://www.govinfo.gov and 
                      http://edworkforce.house.gov
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-821 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
                 Steven S. Giaier, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

      SUBCOMMITTEE ON CYBERSECURITY AND INFRASTRUCTURE PROTECTION

                    John Ratcliffe, Texas, Chairman
John Katko, New York                 Cedric L. Richmond, Louisiana
Daniel M. Donovan, Jr., New York     Sheila Jackson Lee, Texas
Mike Gallagher, Wisconsin            James R. Langevin, Rhode Island
Thomas A. Garrett, Jr., Virginia     Val Butler Demings, Florida
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kristen M. Duncan, Subcommittee Staff Director

                COMMITTEE ON EDUCATION AND THE WORKFORCE

               Virginia Foxx, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia, Ranking Member
David P. Roe, Tennessee              Susan A. Davis, California
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan, 
Luke Messer, Indiana                     Northern Mariana Islands
Bradley Byrne, Alabama               Frederica S. Wilson, Florida
David Brat, Virginia                 Suzanne Bonamici, Oregon
Glenn Grothman, Wisconsin            Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   Brett Guthrie, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California, 
Lou Barletta, Pennsylvania               Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan, 
Paul Mitchell, Michigan                  Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
Ron Estes, Kansas                    Adriano Espaillat, New York

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Cybersecurity 
  and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity and Infrastructure Protection:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    11
The Honorable Brett Guthrie, a Representative in Congress From 
  the State of Kentucky, and Chairman, Subcommittee on Higher 
  Education and Workforce Development:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Susan A. Davis, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Higher Education and Workforce Development:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable Virginia Foxx, a Representative in Congress From 
  the State of North Carolina, and Chairwoman, Committee on 
  Education and the Workforce:
  Prepared Statement.............................................    11

                               Witnesses

Mr. Stephen A. Cambone, Associate Vice Chancellor, Texas A&M 
  University System:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Douglas C. Rapp, President, Rofori Corporation-DEFCON Cyber, 
  Testifying on Behalf of the Cyber Leadership Alliance:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. David Jarvis, Security and CIO Lead, IBM Institute for 
  Business Value:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Mr. R. Scott Ralls, President, Northern Virginia Community 
  College:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                                Appendix

Questions From Chairman John Ratcliffe for Stephen A. Cambone....    61
Questions From Chairman John Ratcliffe for Douglas Rapp..........    63
Question From Chairman John Ratcliffe for David Jarvis...........    64
Question From Chairwoman Virginia Foxx for David Jarvis..........    65
Questions From Chairwoman Virginia Foxx for Scott Ralls..........    66

 
        PUBLIC-PRIVATE SOLUTIONS TO EDUCATING A CYBER WORKFORCE

                              ----------                              


                       Tuesday, October 24, 2017

     U.S. House of Representatives,        
      Committee on Homeland Security,      
         Subcommittee on Cybersecurity and 
  Infrastructure Protection, joint with the
      Committee on Education and Workforce,
                  Subcommittee on Higher Education 
                         and Workforce Development,
                                            Washington, DC.
    The Subcommittee on Cybersecurity and Infrastructure 
Protection and Subcommittee on Higher Education and Workforce 
Development met, pursuant to notice, at 2:06 p.m., in room 210, 
Rayburn House Visitors Center, Hon. John Ratcliffe [Chairman of 
the Cybersecurity and Infrastructure subcommittee] presiding.
    Present from the Cybersecurity and Infrastructure 
Protection subcommittee: Representatives Ratcliffe, Donovan, 
and Langevin.
    Present from the Education and Workforce Development 
subcommittee: Representatives Guthrie, Davis, Thompson, 
Smucker, Estes, Courtney, Adams, Takano, Rochester, and Scott.
    Mr. Ratcliffe [presiding]. Good afternoon. The Committee on 
Homeland Security Subcommittee on Cybersecurity and 
Infrastructure Protection and the Committee on Education 
Workforce Subcommittee on Higher Education and Workforce 
Development will come to order.
    The subcommittees are jointly meeting today to receive 
testimony regarding the public-private solutions to educating a 
cyber work force. I now recognize myself for an opening 
statement.
    Let me begin by welcoming our witness panel and our guests 
today. Thank you all for taking time away from your important 
work to testify here and help Congress better understand these 
work force issues. I am especially grateful for the opportunity 
to collaborate today with the Members of the Higher Education 
and Workforce Development Subcommittee to hold this joint 
hearing on developing our Nation's cyber work force.
    I would like to thank Chairwoman Fox and Chairman Guthrie, 
as well as Ranking Members Scott and Davis for their collective 
work on this critical issue. It is an important time for 
cooperation here on Capitol Hill. It is my sincere hope that 
the public will be encouraged that Members on both sides of the 
aisle are focused on the important issues that really matter.
    Cybersecurity is an issue that affects every sector of our 
economy and every sector of our society. The risks are broadly 
shared, and this joint hearing shows the need for an integrated 
approach to address the challenge of the cyber skills gap.
    Cyber attacks are growing in frequency and sophistication, 
but the availability of qualified cybersecurity professionals 
to deal with these challenges is simply not keeping pace. We 
cannot speak to the shortage of workers without recognizing the 
importance of the academic pipeline that produces today's work 
force, as well as our next generation of experts who will need 
to keep pace with the technology and the ever-evolving threats.
    The dearth of cybersecurity talent is a major resource 
constraint that impacts our ability to protect information and 
assets. More than 200,000 cybersecurity jobs in the United 
States are unfilled, and the demand for positions, like the 
information security professionals, is expected to grow by as 
much as 53 percent through 2018. This slow-moving crisis is 
very likely only to get worse.
    The Cybersecurity and Infrastructure Protection 
Subcommittee recently heard testimony that indicated that the 
struggle to find qualified personnel to fill these 
cybersecurity roles in Government and business is not only a 
short-term problem, but is expected to grow and become more 
acute in the future. Technology innovation and criminal tactics 
move very fast. With each new wirelessly-connected baby monitor 
or internet-connected energy-efficient pipeline that comes on-
line, new threats and vulnerabilities emerge to exploit those 
technologies.
    Just as the connected world expands and new products 
improve our quality of life, simplifying many tasks, our 
vulnerabilities move in parallel and demand a skilled work 
force who can protect the functionality and preserve 
confidentiality data. Public and private hiring systems must 
likewise shift and adapt to a new way of thinking about hiring 
and recruiting. We need intellectual capital that better 
reflects the qualifications and skills of a new type of cyber 
worker.
    For their entire lives, younger Americans entering the work 
force have possessed more technology in a single smartphone 
than some ever imagined. Consider that the iPhone 7 operates at 
1.4 gigahertz and can process instructions at a rate of 
approximately 1.2 instructions every cycle in each of its two 
cores. Put simply, the iPhone 7s clock is 32,600 times faster 
than the best Apollo-era computers and could perform 
instructions 120 million times faster. You wouldn't be wrong in 
saying that an iPhone could be used to guide 120 million 
Apollo-era spacecraft to the moon all at the same time. The 
rate of innovation in the information technology sector is 
truly astonishing.
    I believe that the Federal Government and our cybersecurity 
leaders can create more alliances with community groups, 
universities, and career and technical schools to better 
develop our talent pipeline. The Department of Homeland 
Security supports a number of efforts to strengthen its work 
force from programs to recruit new cyber talent to those that 
allow the private-sector experts the opportunity to share their 
knowledge with those working at DHS.
    We need to encourage Government, university, employer 
collaborations that are meaningful and that are robust. 
Demonstrating cyber know-how no longer comes in discrete forms 
such as having a bachelor's degree or not or obtaining a cyber 
certification. Cyber competitions, bug bounty programs, and 
coding camps are all new forms of work force development.
    I am looking forward to discussing with our witnesses today 
some of the best practices in building public-private 
partnerships to expand the cyber work force pipeline. The cyber 
capabilities of our work force help support economic strength 
and sustain our technological advantage. It is my firm belief 
that America will only remain the world's preeminent superpower 
so long as it remains the world's cybersecurity leader. 
Leadership matters, and if we don't encourage and develop the 
talented women and men who lead this work, we will be both 
poorer and less safe as a country.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                            October 24, 2017
    Let me begin by welcoming our witness panel and our guests today. 
Thank you for taking the time away from your important work to testify 
and help Congress better understand these work force issues. I am 
especially grateful for the opportunity to collaborate with the Members 
of the Higher Education and Workforce Development Subcommittee to hold 
this joint hearing on developing our Nation's cyber work force. I would 
like to thank Chairwoman Foxx and Chairman Guthrie for their work on 
this critical issue. It is an important time for cooperation here on 
Capitol Hill and it is my sincere hope that the public will be 
encouraged that Members on both sides of the aisle are focused on 
important issues that really matter.
    Cybersecurity is an issue that affects every sector of our economy 
and our society. The risks are broadly shared and this joint hearing 
shows the need for an integrated approach to address the challenge of 
the cyber skills gap. Cyber attacks are growing in frequency and 
sophistication, but the availability of qualified cybersecurity 
professionals to deal with these challenges is not keeping pace. We 
cannot speak to the shortage of workers without recognizing the 
importance of the academic pipeline that produces today's work force as 
well our next generation of experts who will need to keep pace with 
technology and the ever-evolving threats.
    The dearth of cybersecurity talent is a major resource constraint 
that impacts our ability to protect information and assets. More than 
200,000 cybersecurity jobs in the United States are unfilled and the 
demand for positions, like information security professionals, is 
expected to grow by 53 percent through 2018. This slow-moving crisis is 
very likely to only get worse.
    The Cybersecurity and Infrastructure Protection subcommittee 
recently heard testimony that indicated that the struggle to find 
qualified personnel to fill cybersecurity roles in Government and 
business is not only a short-term problem, but is expected to grow and 
become even more acute in the future. Technology innovation and 
criminal tactics move very fast, and with each new wirelessly-connected 
baby monitor or interconnected energy-efficient pipeline that comes on-
line, new threats and vulnerabilities emerge to exploit those 
technologies. Just as the connected world expands and new products 
improve our quality of life, simplifying many tasks, our 
vulnerabilities move in parallel and demand a skilled work force who 
can protect the functionality and preserve confidential data.
    Public and private hiring systems must likewise shift and adapt to 
a new way of thinking about hiring and recruiting; we need intellectual 
capital that better reflects the qualifications and skills of a new 
type of cyber worker. For their entire lives, younger Americans just 
entering the work force have possessed more technology in a single 
smartphone than some ever imagined. Consider that the iPhone 7 operates 
at 1.4 gigahertz and can process instructions at a rate of 
approximately 1.2 instructions every cycle in each of its 2 cores. Put 
simply, the iPhone 7's clock is 32,600 times faster than the best 
Apollo-era computers and could perform instructions 120,000,000 times 
faster. You wouldn't be wrong in saying an iPhone could be used to 
guide 120,000,000 Apollo-era spacecraft to the moon, all at the same 
time. The rate of innovation in the information technology sector is 
simply astonishing.
    I believe the Federal Government and our cybersecurity leaders can 
create more alliances with community groups, universities, and career 
and technical schools to better develop our talent pipeline. The 
Department of Homeland Security supports a number of efforts to 
strengthen its work force, from programs to recruit new cyber talent to 
those that allow private-sector experts the opportunity to share their 
knowledge working at DHS. We need to encourage Government-university-
employer collaborations that are meaningful and robust. Demonstrating 
cyber know how no longer comes in discrete forms such as having a 
bachelor's degree or not, or obtaining a cyber certification. Cyber 
competitions, bug bounty programs, and coding camps are all new forms 
of work force development.
    I am looking forward to discussing with our witnesses today some of 
the best practices in building public-private partnerships to expand 
the cyber work force pipeline.
    The cyber capabilities of our work force help support economic 
strength and sustain our technological advantage. It is my firm belief 
that America will only remain the world's preeminent superpower so long 
as it remains the world's cybersecurity leader. Leadership matters, and 
if we don't encourage and develop the talented men and women who lead 
this work, we will be both poorer and less safe.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of the Subcommittee on Cybersecurity and 
Infrastructure Protection, the gentleman from Louisiana, Mr. 
Richmond, for his opening statement.
    Mr. Richmond. Good afternoon, and I would like to thank 
Chairman Ratcliffe for holding today's joint hearing to explore 
solutions to educating our cyber work force. I would also like 
to thank Subcommittee on Higher Education and Workforce 
Chairman Guthrie and Ranking Member Davis for participating in 
today's hearing and sharing your expertise with us.
    Last month, we held a hearing to discuss the challenge 
public and private-sector groups encounter as they try to 
recruit and retain skilled cybersecurity professionals, 
including Federal agencies like DHS. Every expert on the panel 
seemed to agree that the real problem is demand. The need for 
cybersecurity talent is accelerating at an impossible rate. We 
cannot rely on 4-year academic institutions and traditional 
educational frameworks to produce a stream of professionals 
commensurate with the number of connected devices we now use.
    What we learned is that before we can recruit and retain, 
we have to start with a more fundamental question--how can we 
educate, train, and certify today's students and job applicants 
to be tomorrow's cybersecurity experts? How do we inject more 
professionals into the job market?
    In 2012, Bureau of Labor Statistics projected that by 2020 
there would be 400,000 computer scientists available to fill 
1.4 million computer science jobs. Recent reports suggest that 
that deficit is growing instead of shrinking and may reach 1.8 
million by 2022. To overcome this shortage, we need a ``no 
stone left unturned'' mentality that allows us to tap into 
every segment of the applicant pool.
    Unfortunately, that is not the case today. At our hearing 
last month, we heard from the International Consortium of 
Minority Cybersecurity Professionals, or ICMCP, that women and 
minorities are still vastly underrepresented in cybersecurity, 
with women making up around 11 percent and African-Americans 
and Hispanics making up less than 12 percent of the global 
cyber work force combined.
    What those numbers say to me is that we are still leaving 
talent on the table. ICMCP's testimony went even further, 
arguing that in the realm of National statute, having a diverse 
cyber work force is mission-critical. To support this, ICMCP 
pointed to the 2014 CIA diversity and leadership study, which 
found that a lack of diversity in CIA's leadership may have 
contributed to past intelligence failures.
    We need to be leveraging non-traditional training models, 
like apprenticeships or vocational programs, community 
colleges, and career development tools. We also need to grow 
partnerships at the K-12 level to make sure children are being 
introduced to computers at an early age, even the ones who go 
to schools that can't afford a specialized tech program.
    Some of the skills we need to leverage can't be taught in a 
classroom, and we need to think creatively about how we 
identify and cultivate traits that lead themselves to 
cybersecurity, for example, a natural affinity for problem 
solving or an analytical approach to risk. With the risk access 
and support, these candidates can easily learn the technical 
skills through on-the-job training, industry certifications, 
community college courses, and modern vocational programs.
    As our world grows more and more connected, we also need a 
multidisciplinary approach to cyber education, one that reaches 
professionals in the fields like construction, nursing, and 
electrical engineering. I look forward to hearing ideas from 
our esteemed panel of witnesses today about how we as Federal 
policy makers should be thinking about growing and diversifying 
our cyber talent pipeline. But ultimately, if we are going to 
make a dent in the cyber work force challenge, we need to do 
more than talk about it. We cannot pretend to be serious about 
right-sizing the cyber work force while at the same time 
entertaining the administration's request for massive cuts to 
programs like the National Science Foundation's Scholarship for 
Service.
    Similarly, I cannot fathom what kind of message is being 
sent to DACA recipients working to earn tech degrees in fields 
like cybersecurity, nor can I understand the logic behind 
needlessly sending this home-grown talent abroad.
    I will conclude by saying that defending our networks from 
cyber attacks requires strong leadership, sustained funding 
from Congress, and action. I look forward to hearing the 
testimony of our witnesses today and hope we can identify 
innovative ways to work together to address cybersecurity work 
force challenges. With that, I yield back.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                            October 24, 2017
    Last month, we held a hearing to discuss the challenge public and 
private-sector groups encounter as they try to recruit and retain 
skilled cybersecurity professionals--including Federal agencies like 
DHS.
    Every expert on the panel seemed to agree that the real problem is 
demand: The need for cybersecurity talent is accelerating at an 
impossible rate. We cannot rely on 4-year academic institutions and 
traditional educational frameworks to produce a stream of professionals 
commensurate with the number of connected devices we now use.
    What we learned is that, before we can recruit and retain, we have 
to start with a more fundamental question--how can we educate, train, 
and certify today's students and job applicants to be tomorrow's 
cybersecurity experts? How do we inject more professionals into the job 
market?
    In 2012, the Bureau of Labor Statistics projected that by 2020, 
there would be 400,000 computer scientists available to fill 1.4 
million computer science jobs. Recent reports suggest that deficit is 
growing instead of shrinking, and may reach 1.8 million by 2022. To 
overcome this shortage, we need a ``no stone left unturned'' mentality 
that allows us to tap into every segment of the applicant pool.
    Unfortunately, that is not the case today. At our hearing last 
month, we heard from the International Consortium of Minority 
Cybersecurity Professionals, or ICMCP, that women and minorities are 
still vastly under-represented in cybersecurity--with women making up 
around 11 percent, and African Americans and Hispanics making up less 
than 12 percent of the global cyber work force combined. What those 
numbers say to me is that we are still leaving talent on the table.
    ICMCP's testimony went even further, arguing that in the realm of 
National security, having a diverse cyber work force is mission-
critical. To support this, ICMCP pointed to the 2014 CIA Diversity in 
Leadership Study which found that a lack of diversity in CIA's 
leadership may have contributed to past intelligence failures. We need 
to be leveraging non-traditional training models like apprenticeships 
or vocational programs, community colleges, and career development 
tools.
    We also need to grow partnerships at the K-12 level to make sure 
children are being introduced to computers at an earlier age--even the 
ones who go to schools that can't afford a specialized tech program.
    Some of the skills we need to leverage can't be taught in a 
classroom, and we need to think creatively about how we identify and 
cultivate traits that lend themselves to cybersecurity--for example, a 
natural affinity for problem solving or an analytical approach to risk.
    With the right access and support, these candidates can easily 
learn the technical skills through on-the-job training, industry 
certifications, community college courses, and modern vocational 
programs. As our world grows more and more connected, we also need a 
multidisciplinary approach to cyber education--one that reaches 
professionals in fields like construction, nursing, and electrical 
engineering.
    I look forward to hearing ideas from our esteemed panel of 
witnesses today about how we, as Federal policy makers, should be 
thinking about growing and diversifying our cyber talent pipeline. But 
ultimately, if we're going to make a dent in the cyber work force 
challenge, we need to do more than talk about it.
    We cannot pretend to be serious about right-sizing the cyber work 
force while at the same time entertaining the administration's request 
for massive cuts to programs like the National Science Foundation's 
Scholarship for Service.
    Similarly, I cannot fathom what kind of message is being sent to 
DACA recipients working to earn tech degrees in fields like 
cybersecurity--nor can I understand the logic behind needlessly sending 
this home-grown talent abroad.
    I'll conclude by saying that defending our networks from cyber 
attack requires strong leadership, sustained funding from Congress, and 
action. I look forward to hearing the testimony of our witnesses today, 
and hope we can identify innovative ways to work together to address 
cybersecurity work force challenges.

    Mr. Ratcliffe. I thank the gentleman. The Chair now 
recognizes the Chairman of the Subcommittee on Higher Education 
and Workforce Development, the gentleman from Kentucky, Mr. 
Guthrie, for any statement that he has.
    Mr. Guthrie. Thank you very much. Good afternoon and 
welcome to today's joint subcommittee hearing with colleagues 
from the Subcommittee on Cybersecurity and Infrastructure 
Protection. I would like to thank our panel of witnesses and 
Chairman Ratcliffe, Ranking Member Richmond, Ranking Member 
Davis, and the Members of both subcommittees for joining 
today's important discussion on apprenticeships and 
opportunities for us to grow the Nation's work force.
    When Americans think of data breaches and cyber attacks, 
names like Equifax come to mind. This and other recent high-
profile data breaches have made private and sensitive 
information vulnerable to identity theft, as well as other 
cyber crimes. Cyber crimes are constantly appearing in the 
news, and Americans want to know what is being done to protect 
their data, as well as other vulnerable targets that compromise 
our National infrastructure.
    Organizations in public and private sectors are actively 
seeking skilled professionals to fill the numerous jobs 
available in the growing cybersecurity field and are coming up 
short in the number of Americans able to fill these essential 
positions that ensure our American cyber infrastructure is 
safe. A recent study by the Intel Security and Center for 
Strategic and International Studies, CSIS, examined the global 
security, cybersecurity work force shortage and confirmed that 
the talent shortage was real and wide-spread. Eighty-two 
percent of participation report of a shortage of cybersecurity 
skills.
    The same report found that more than 209,000 cybersecurity 
jobs in the United States are unfilled, and job postings are up 
74 percent over the past 5 years. Additionally, the demand for 
cybersecurity professionals is expected to grow to over 1.8 
million by 2022. This skills gap is not unique to cybersecurity 
sector. Many other industries such as manufacturing and 
transportation are facing a shortage of skilled workers to fill 
good-paying jobs. However, when dealing with the cybersecurity, 
the stakes are even higher, because we are dealing with 
National security.
    Fortunately, today's hearing continues the discussion in 
Congress on how to best fill the skills gap. The House 
unanimously passed Strengthening Career and Technical Education 
for the 21st Century Act, which allows States to dedicate 
additional resources toward high-demand fields such as 
cybersecurity based on changing economic educational and 
National security needs.
    Additionally, the Committee on Education and Workforce has 
been carefully observing the implementation of Workforce 
Innovation and Opportunity Act that was signed into law in 
2014. This law streamlined the confusing maze of work force 
development programs and increased the amount of funding 
available to States that meet specific work force demands based 
on conversations with public and private stakeholders in each 
State. Today's hearing will examine solutions to filling the 
skills gap that currently exists in the cybersecurity field and 
how coalitions across Government, academic institutions, and 
private industries can pave the way to successfully close the 
skills gap and keep our country's cybersecurity infrastructure 
safe.
    I look forward to hearing from our witnesses about how 
Congress can assist, and the conversation is already taking 
place between the institutions of higher education and public 
and private entities in the cybersecurity field. I yield back.
    [The prepared statement of Chairman Guthrie follows:]
                  Statement of Chairman Brett Guthrie
                            October 24, 2017
    When Americans think of data breaches and cyber attacks, names like 
Equifax come to mind. This and other recent high-profile data breaches 
have made private and sensitive information vulnerable to identity 
theft as well as other cyber crimes.
    Cyber crimes are constantly appearing in the news, and Americans 
want to know what is being done to protect their data, as well as other 
vulnerable targets that comprise our National infrastructure.
    Organizations in the public and private sectors are actively 
seeking skilled professionals to fill the numerous jobs available in 
the growing cybersecurity field, and are coming up short in the number 
of Americans able to fill these essential positions that ensure our 
American cyber infrastructure is safe.
    A recent study by Intel Security and the Center for Strategic and 
International Studies (CSIS) examined the global cybersecurity work 
force shortage and confirmed that the talent shortage was real and 
wide-spread. Eighty-two percent of participants report a shortage of 
cybersecurity skills.
    The same report found that more than 209,000 cybersecurity jobs in 
the United States are unfilled, and job postings are up 74 percent over 
the past 5 years. Additionally, the demand for cybersecurity 
professionals is expected to continue to grow to over 1.8 million by 
2022.
    This skills gap is not unique to the cybersecurity sector. Many 
other industries such as manufacturing and transportation are facing a 
shortage of skilled workers to fill good-paying jobs. However, when 
dealing with cybersecurity, the stakes are even higher because we are 
dealing with National security.
    Fortunately, today's hearing continues the discussion in Congress 
on how to best fill the skills gap.
    The House unanimously passed the Strengthening Career and Technical 
Education for the 21st Century Act, which allows States to dedicate 
additional resources toward high-demand fields such as cybersecurity 
based on changing economic, educational, or National security needs.
    Additionally, the Committee on Education and the Workforce has been 
carefully observing the implementation of the Workforce Innovation and 
Opportunity Act that was signed into law in 2014.
    This law streamlined the confusing maze of work force development 
programs, and increased the amount of funding available to the States 
to meet specific work force demands based on conversations with public 
and private stakeholders in each State.
    Today's hearing will examine solutions to filling the skills gap 
that currently exists in the cybersecurity field, and how coalitions 
across Government, academic institutions, and private industries can 
pave the way to successfully close this skills gap and keep our 
country's cybersecurity infrastructure safe.

    Mr. Ratcliffe. I thank the gentleman. The Chair now 
recognizes the Ranking Minority Member of the Subcommittee on 
Higher Education and Workforce Development, the gentlelady from 
California, Ms. Davis, for her opening statement.
    Ms. Davis. Thank you. Thank you, Mr. Chairman. I want to 
thank our presenters here this morning or this afternoon for 
this timely and important hearing. I am certainly excited to be 
joining with the Cybersecurity and Infrastructure Subcommittee, 
as well.
    So you know, we are holding this hearing today to explore 
the critical issue of the cybersecurity work force pipeline. It 
is an urgent problem that has serious ramifications for our 
National security. As my colleagues have pointed out, 
cybersecurity attacks are on the rise, resulting in massive 
data breaches and the loss of critical private data, as well.
    We know that cybersecurity vulnerabilities extend to 
critical infrastructure and even our elections. The need for a 
more secure cyber infrastructure is only going to grow as 
technology continues to move into even more aspects of our 
daily lives. So by tackling this problem, we can create 
critical infrastructure and a very important component is to 
also create many more high-paying jobs.
    The fundamental building block of a strong and durable 
cyber infrastructure is highly-skilled cybersecurity workers. 
But there is a consensus that we face a critical shortage of 
cybersecurity professionals, leaving the Nation especially 
vulnerable. So in today's hearing, we will hear from 
businesses, as well as higher education institutions on what is 
being done, what remains to be done in order to fill our 
cybersecurity work force needs.
    In order to address these problems, we must ensure that we 
are actively recruiting women, African-Americans, Hispanics, 
Native Americans into the field. These groups are woefully 
underrepresented in the cybersecurity work force. According to 
a study, women account for only about 11 percent to 14 percent 
of North America's cybersecurity professionals, so we have to 
do better. We must not only deepen, but also broaden the pool 
of highly-trained individuals in the field.
    I look forward to hearing from Dr. Ralls on the many 
innovative programs that the Northern Virginia Community 
Colleges has developed to rebuild this robust cybersecurity 
work force. Really, in response to a burgeoning need, the 
college has grown from 50 to 1,500 students in one of his 
associate's programs in just 4 years. That is really a 
remarkable change and increase. They are using some very 
successful proven career development methods like 
apprenticeships, that I think we are all going to be talking 
about, and career and technical education to bridge the gap.
    This is the type of innovation that we should promote and 
support, but I do want to raise a point of concern that the 
administration is pointing us in the wrong direction. The 
administration's budget request proposed to cut funding for the 
CyberCorps Scholarship for Service Program by a whopping 27 
percent from its fiscal year 2017 levels, so we want to be 
looking to expand and not contract our efforts to fill 
cybersecurity work force shortages.
    Surely Government, educational institutions, and industry 
leaders must come together to address the shortage. Government 
should be adequately investing in the educational and work 
force development infrastructure to grow the talent pool and 
raise awareness for cybersecurity careers. I know that there 
are innovative ways that the work force system can use Federal 
investment to build a strong cybersecurity work force.
    In my district, in San Diego, the San Diego Workforce 
Partnership is using funding from the Obama administration's 
Tech-Hire grants to build cybersecurity training programs. I 
also believe that educational institutions must be more 
responsive to the shortages by creating an expanding 
cybersecurity programs. I know that we are going to have some 
great examples here today.
    Businesses and industry leaders must also do their part, 
and I look forward to hearing as well from IBM. Industry 
leaders should be expanding apprenticeship programs, investing 
in retraining and upscaling their current work force, as well 
as recruiting from a more diverse talent pool. It is certainly 
goes without saying that our industry leaders must work 
collaborative with educational and training institutions. 
Businesses must also take a critical look at their hiring 
practices and really look at their credentialing requirements 
to ensure that they are not over-specifying credentials that 
might create a barrier.
    I want to thank all of our chairs, and I look forward to 
our witnesses and how we can create more attractive career 
pathways in cybersecurity for both the civilian and the 
military work force. Thank you very much.
    [The statement of Ranking Member Davis follows:]
               Statement of Ranking Member Susan A. Davis
                            October 24, 2017
    Thank you Mr. Chairman.
    This is a timely and important hearing. I am excited to be working 
with our colleagues from the Cybersecurity and Infrastructure 
Subcommittee.
    We are holding this joint hearing today to explore the critical 
issue of the cybersecurity work force pipeline. It is an urgent problem 
that has serious ramifications for our National security. As my 
colleagues have pointed out today, cybersecurity attacks are on the 
rise resulting in massive data breaches and the loss of critical 
private data.
    And we know that cybersecurity vulnerabilities extend to critical 
infrastructure and our elections. The need for a more secure cyber 
infrastructure is only going to grow as technology continues to move 
into even more aspects of our daily lives. By tackling this problem we 
can secure critical information and create many more high-paying jobs.
    The fundamental building block of a strong and durable cyber 
infrastructure is highly-skilled cybersecurity workers. But there's a 
consensus that we face a critical shortage of cybersecurity 
professionals, leaving the Nation especially vulnerable. In today's 
hearing we will hear from businesses as well as higher education 
institutions on what is being done, and what remains to be done in 
order to fill our cybersecurity work force needs.
    In order to address these problems we must ensure that we are 
actively recruiting women, African Americans, Hispanics, and Native 
Americans into the field. These groups are woefully underrepresented in 
the cybersecurity work force. According to a recent survey, women 
account for only 14 percent of North America's cybersecurity 
professionals. We must do better than this. We must not only deepen but 
also broaden the pool of highly-trained individuals in the field.
    I look forward to hearing from Dr. Ralls on the many innovative 
programs that the Northern Virginia Community College has developed to 
build a robust cybersecurity work force. In response to burgeoning 
demand, the Northern Virginia Community College has grown from 50 to 
1,500 students in one of its associates programs in just 4 years--
that's a remarkable thirty-fold increase. They are using successful, 
proven career development methods like apprenticeships and career and 
technical education to bridge the gap.
    This is the type of innovation we should promote and support. 
However I am concerned that the administration is pointing us in the 
wrong direction. The administration's budget request proposed to cut 
funding for the CyberCorps Scholarship for Service program by a 
whopping 27 percent from its fiscal year levels. We should be looking 
to expand, not contract, our efforts to fill cybersecurity work force 
shortages.
    Government, educational institutions, and industry leaders must 
come together to address the shortage. Government should be adequately 
investing in the educational and work force development infrastructure 
to grow the talent pool and raise awareness for cybersecurity careers. 
I know that there are innovative ways that the work force system can 
use Federal investment to build a strong cybersecurity work force. In 
my district, the San Diego Workforce Partnership is using funding from 
the Obama administration's Tech-Hire grants to build cybersecurity 
training programs.
    I also believe that educational institutions must be more 
responsive to the shortages by creating and expanding cybersecurity 
programs and I know we have great examples here today.
    Businesses and industry leaders must also do their part and I look 
forward to hearing today from IBM. Industry leaders should be expanding 
apprenticeship programs, investing in retraining and upskilling their 
current work force as well as recruiting from a more diverse talent 
pool. And it goes without saying, I hope, that our industry leaders 
must work collaboratively with educational and training institutions. 
Businesses must also take a critical look at their hiring practices and 
really look at their credentialing requirements to ensure that they are 
not over-specifying credentials that might create a barrier.
    I would like to thank Chairs Ratcliffe, McCaul, and Guthrie for 
holding this hearing.
    I look forward to hearing from the witnesses on how we can create 
attractive career pathways in cybersecurity for both the civilian and 
military work force.

    Mr. Ratcliffe. I thank the gentlelady. Other Members of the 
committee are reminded that their own opening statements may be 
submitted for the record.
    [The statements of Ranking Member Thompson and Chairwoman 
Foxx follow:]
             Statement of Ranking Member Bennie G. Thompson
                            October 24, 2017
    According to the International Data Corporation, global revenues 
for cybersecurity technology and services will grow from $73.7 billion 
in 2016 to $101.6 billion in 2020.
    Yet, a report by Frost and Sullivan and (ISC)-Squared released 
earlier this year predicted that, despite current projections for 
steady growth in cybersecurity jobs, there will be 1.5 million unfilled 
cybersecurity positions world-wide by 2020.
    As policy makers, we have to ask ourselves why we are struggling to 
attract people to a field that promises so much growth.
    From where I sit, I can see at least three challenges we have to 
address.
    As a Member of Congress representing the Second Congressional 
District of Mississippi, I can tell you that we have to do a better job 
cultivating domestic cybersecurity talent.
    As Ranking Member of the Committee on Homeland Security, I am 
worried that President Trump's immigration policies--particularly 
related the Deferred Action for Childhood Arrivals--will result in a 
loss of cybersecurity talent that our academic institutions and 
businesses have already spent time and money educating and training.
    And as a Member of the Congressional Black Caucus, I know that we 
have missed opportunities to develop cybersecurity talent in diverse 
communities.
    I am pleased that the witnesses before us today will be able to 
give us their thoughts on how the Federal Government can work with the 
private sector to address all three of these issues.
    When the Cybersecurity and Infrastructure Protection Subcommittee 
held its hearing on cybersecurity work force challenges last month, I 
told the panel what my constituents in Mississippi tell me about what 
our approach to this problem should be: Invest aggressively in growing 
domestic cybersecurity talent.
    As a new generation enters the work force and as displaced workers 
try to find their way in a changing economy, we must equip American 
workers with the skills they need to take advantage of cybersecurity 
job opportunities.
    Unfortunately, the Trump administration's commitment to helping our 
work force gain the skills they need to compete for cybersecurity jobs 
is hardly consistent.
    Although President Trump congratulated himself last month for 
directing the Department of Education to spend at least $200 million 
annually on STEM education grants, his fiscal year 2018 budget request 
slashed the National Science Foundation's Scholarship for Service 
Program.
    And I would be remiss if I did not point out that no one knows 
where the Department of Education is going to get the $200 million it 
is supposed to spend on STEM grants.
    The only thing we do know is that the President did not send any 
new money with his directive.
    President Trump is further undermining efforts to address our 
cybersecurity work force challenges with his decision to allow the DACA 
Program to expire in March.
    If we do not provide ``Dreamers'' a path to citizenship, we run the 
risk of hemorrhaging talent across a wide variety of disciplines.
    I am pleased that businesses like Google, Facebook, IBM, and many 
others have formed the Coalition for the American Dream to advocate for 
a path to citizenship for ``Dreamers'' and to keep their talents in the 
United States.
    I am similarly encouraged by the advocacy of academic leaders who 
have urged Congress to act so that the Nation can reap the benefits of 
the Dreamers' skills and talents.
    Finally, we must do more to promote cybersecurity opportunities in 
diverse communities. Today, black and Hispanic people--combined--make 
up only 12 percent of the cybersecurity work force. To me, that means 
we are missing out on untapped potential.
    Despite on-going challenges with a lack of consistent leadership 
from the White House, I am pleased that the private sector and our 
academic institutions continue to work together to build a robust 
cybersecurity work force.
    I am eager to learn more about these efforts and how Congress can 
help support them.
                                 ______
                                 
                 Statement of Chairwoman Virginia Foxx
    We are facing a skills gap in this country, and the cybersecurity 
sector is not immune from its impact.
    Major corporations and Government entities are looking for highly-
skilled professionals to fill important positions that ensure our 
country's public institutions, as well as private businesses, remain 
safe from the growing number of cyber threats.
    According to a report by the Congressional Research Service, the 
Department of Defense, and the Department of Homeland Security require 
over 4,000 personnel to handle the current cybersecurity threats that 
impact the Government.
    While this skills gap currently exists in the cybersecurity sector, 
conversations are being had between skills-based institutions of 
education and employers to better ensure that the skills students are 
learning in the classroom match the need for skilled employees in the 
cybersecurity filed.
    This is encouraging news, and I hope the cybersecurity sector 
continues on this positive trend, and can be a model for other 
industries to prepare a skilled and equipped work force of the future.
    The progress is so encouraging that a study by the RAND Corporation 
has indicated that demand will likely be met over time due to an 
increased number of cybersecurity apprenticeship and education 
programs.
    At the Education and Workforce Committee, we are looking for more 
ways to raise awareness across all industries for apprenticeship and 
other earn-and-learn opportunities. That is why today's hearing is 
particularly important, not just what it means for security, but what 
it means for future jobs.

    Mr. Ratcliffe. We are all very pleased to have a very 
distinguished panel of witnesses before us today. Dr. Stephen 
Cambone is the associate vice chancellor for the Texas A&M 
University System. Good to see you again, Dr. Cambone.
    Mr. Douglas Rapp is the president of Rofori Corporation-
DEFCON Cyber and is testifying on behalf of the Cyber 
Leadership Alliance. Mr. Rapp, we are glad to have you here, as 
well.
    Mr. David Jarvis is the security and CIO lead of the IBM 
Institute for Business Value. Mr. Jarvis, welcome to our 
committees.
    Our final witness is Dr. R. Scott Ralls, president of the 
Northern Virginia Community College. Dr. Ralls, thank you for 
being here, as well.
    [Witnesses sworn.]
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Dr. Cambone for 5 minutes for 
his opening statement.

  STATEMENT OF STEPHEN A. CAMBONE, ASSOCIATE VICE CHANCELLOR, 
                  TEXAS A&M UNIVERSITY SYSTEM

    Mr. Cambone. Thank you, Mr. Chairman, Chairman Ratcliffe, 
Mr. Richmond, and Ms. Davis, it is a pleasure to be here with 
you. I am a relatively newly-appointed associate vice 
chancellor of the university, but I come to this hearing with a 
long background in the field, having spent a good deal of time 
in my prior positions dealing with the issues of both the cyber 
domain--that is, operations and activities in the cyber domain, 
including everything from your wristwatch to robots--and have 
spent a fair amount of time in the private sector doing the 
same.
    A word about Texas A&M. Texas A&M is a land grant 
university. As such, it very closely hews to the original 
purpose of the land grant college, which is to look after the 
development of the work force. The reason I am there is the 
vice chancellor for engineering for the system is looking to 
build a coherent program in cybersecurity out of the 11 
universities and 3 agencies over which she has considerable 
influence, because she is, as well, the dean of engineering of 
the college at A&M and has some 19,000 engineering students 
from which to cull the cybersecurity work force of the future.
    We have over the past year-and-a-half been granted three 
designations by NSA and the Department of Homeland Security in 
cybersecurity. We are quite proud of that fact. It is in cyber 
operations, cyber defense education, and cyber defense 
research. What does that mean? It means essentially that the 
auditors came in from both DHS and NSA and said, do you have a 
teaching program? Do you have students? Do you have faculty who 
will address the issues that are going to face the country in 
cybersecurity in the years to come? The answer was, yes, we 
did, and therefore those designations are in place.
    We have a minor degree program in cybersecurity for 
undergraduates. In the course of the last 2 years, we now have 
300 students in that program, and 39 have graduated with 
bachelor's degrees with a minor in cybersecurity. In the spring 
of 2018, we will begin a master's of engineering in 
cybersecurity. It is a multidisciplinary degree intended to 
admit any bachelor's of science graduate into the program where 
they will learn the essentials of cybersecurity in order to 
bring it back to their career fields in aero, mechanical, 
civil. Whichever engineering field they may have been in, they 
will have the fundamentals in cybersecurity and be able to 
bring it to their businesses.
    We have worked fairly hard, Mr. Richmond, to make some 
arrangements with our friends at Blinn College, which is a very 
large 2-year university in the town next to College Station. In 
particular, in the field of nursing, where we will work with 
them to put together a program to test biomedical devices, to 
see that they meet the standards of both users and the 
patients.
    I wanted to offer two thoughts in closing on how we might 
address some of the issues associated with the work force. One 
is a bit wonky, I will admit, and that is that the ISACs, which 
are functioning better or worse depending on the sector, have a 
wealth of data and information within them, which we think if 
we could get some of the research faculty from around the 
country to engage the material in those ISACs, we might be able 
to begin to pull out some of the best practices and some of the 
enduring issues that need to be addressed and offer then 
recommendations both to the ISAC leadership and the members, 
but also into our academic programs as to how we might begin to 
address those enduring problems.
    The second has to do with really picking up on the notion 
of a land grant college. The university is a land grant, sea 
grant, and space grant college. We think that it is time maybe 
to think about a cyber grant program and model it on the space 
and sea grant programs, which are really designed to be 
consortium-based and to be outreach-focused in a way to build 
up the cybersecurity practices of the people in the various 
regions of the country that they serve.
    So with that, Mr. Chairman, thank you.
    [The prepared statement of Mr. Cambone follows:]
                Prepared Statement of Stephen A. Cambone
                            October 24, 2017
                              introduction
    Chairman Ratcliffe, Chairman Guthrie, Members of the subcommittees, 
thank you for the opportunity to testify before you today.
    I come before you this afternoon to discuss cybersecurity work 
force development, as the recently-appointed associate vice chancellor 
for Cyber Security Initiatives for Texas A&M University System.
    The system's flagship university, Texas A&M, is a land grant 
university. As such it is particularly attuned to meeting the work 
force needs of the State and Nation.
    My charge is to assist in the development of a multidisciplinary 
program in cybersecurity across the 11 universities and 7 State 
agencies that comprise the system. I have been asked to engage leaders 
across the State and Nation, both in the public and private sector, to 
identify the most pressing needs and then look to the resources of the 
system to determine whether and in what way we can contribute to 
meeting those needs.
    Our objective is to develop transformational cybersecurity 
capabilities, implemented by a well-educated and trained work force, 
that support the United States' mission of protecting against and 
combatting large-scale cyber attacks.
    I come to the Texas A&M System after a career in both the public 
and private sector. During my time in the Pentagon as senior official 
from 2001-2006, I was witness to and occasionally helpful in advancing 
the National interest and capabilities in the cyber domain. While 
serving as the first under secretary of defense, I had oversight of on 
behalf of the Secretary of a variety of cyber issues.
    My subsequent experience in the private sector included 
responsibility for a substantial business unit that supported several 
Government customers with interests in the cyber domain. That business 
unit also explored as early as 2008 the use of commercial 
communications and devices--and their attendant security--to manage 
small robots and hand-held drones, controlled through cellular networks 
and reporting to the user on wearable devices, for a wide variety of 
applications.
    Given our increasing reliance on cyber-physical systems--the power 
grid and the internet of things being two examples--there is a 
compelling need for well-educated professionals to address the 
cybersecurity needs of the Nation.
    Those needs are felt at the local, Tribal, State, and Federal 
level. Some put the need at more than 200,000 professionals, not 
including the primary, secondary, or university educators.
    Universities across the Nation are experimenting with a variety of 
undergraduate and graduate degrees and professional education programs 
to meet the demand.
    The difficulty faced in meeting the demand is both the shortage of 
well-educated instructors and the increasing velocity of change in the 
field of cybersecurity.
    Within the Texas A&M University System we are addressing both 
issues.
  background on the texas a&m university system work force activities
    The Texas A&M College of Engineering is one of the largest in the 
Nation with over 19,000 students and numerous tenure track and 
professional faculty conducting research and collaborating outside of 
Engineering on a range of cyber-related topics.
    The quality of their work, and the education it supports, has 
resulted in Texas A&M's designation by the NSA/DHS as a National Center 
of Excellence in three distinct areas: Cyber Operations, Cyber Defense 
Education, and Cyber Defense Research.
    Texas A&M University is one of only eight universities in the 
United States, and is the only public university in the American 
Association of Universities, with all three designations.
    Texas A&M has created a cybersecurity minor field of study. First 
implemented in 2016, it is already the largest minor in the College of 
Engineering.
    Over 300 students in six different university colleges/schools have 
enrolled, including 39 who have already graduated.
    In the spring of 2018, the University will enroll its first cohort 
of students in a distinctive Masters of Engineering in Cybersecurity.
    In addition, the Texas A&M Engineering Extension Service (TEEX), 
and the Texas A&M Engineering Experiment Station (TEES), two State 
agencies which are a part of the Texas A&M University System, have 
extensive programs in applied research and emergency response work 
force development related to cybersecurity.
    TEEX is a leading member of the National Domestic Preparedness 
Consortium and the National Cybersecurity Preparedness Consortium. Both 
consortia are critical preparedness partners of DHS/FEMA. Its Cyber 
Readiness Center provides technical assistance to private and public 
organizations with the intent of improving the health and security of 
their digital operations. It delivers, at no cost, DHS/FEMA 
cybersecurity courses. It provides preparatory classes for professional 
certifications in cybersecurity and provides technical assistance to 
prepare for cyber events. And, it conducts response exercises to 
prepared communities and their officials to take swift, targeted action 
to address an attack and limit losses.
    TEES, through its EDGE program for professional and continuing 
education, supports the deployment of face-to-face, on-line and blended 
classes. All of its courses can be made portable. In addition, it has 
developed the means of providing similar services for academic 
instruction, enabling coursework to be presented throughout the Texas 
A&M University System. These assets are being woven into the 
cybersecurity initiatives sponsored by the vice chancellor's office.
    As impressive and effective as these measures and similar efforts 
made in States across the Nation may be, they are not sufficient to 
meet the increasing need for a well-educated cybersecurity work force.
                            recommendations
    With your permission, I'd like to offer two suggestions that might 
improve the rate at which we educate and increase the cyber work force.
Expand existing information-sharing programs to meet work force needs
    DHS might select and invite researchers and educators to affiliate 
with each existing ISAC and ISAO, expanding the collaborative benefits 
of these public-private partnerships to include cyber work force 
development.
    Participants from higher education would be exposed to and able to 
conduct basic and applied research into each sector's immediate 
challenges. This research can benefit each sector and might be shared 
across sectors while simultaneously providing material for real-time 
updates of course curriculum. This practical knowledge could help our 
graduates entering the work force to be ``job ready on Day 1''.
Create a Cyber Grant program to meet work force needs
    The Morrill Act recognized that the classical education then 
offered by institutions of higher learning were not meeting the 
pressing needs of the Nation. It gave rise to the great land grant 
universities in the United States. More recently, Congress created Sea 
and Space Grant programs to conduct research and extend the benefits of 
that education to local populations.
    Considering the challenges we face in developing and maintaining 
the cybersecurity work force, the creation of a Cyber Grant Program 
modeled after the three previous grant programs can be established to 
realize similar benefits.
    It can facilitate significant advancement of cybersecurity 
research, education, and outreach across a broad front, including the 
development and delivery of portable course content that addresses all 
16 critical infrastructure sectors designated by DHS, and can be used 
by industry in professional development.
                               conclusion
    It will take time to build the cyber work force we require. We need 
to be intentional and aggressive in our efforts now to yield essential 
returns in the future. Time is of the essence and the Texas A&M 
University System is ready to serve.

    Mr. Ratcliffe. Thank you, Dr. Cambone. The Chair now 
recognizes Mr. Rapp for 5 minutes for his opening statement.

  STATEMENT OF DOUGLAS C. RAPP, PRESIDENT, ROFORI CORPORATION-
  DEFCON CYBER, TESTIFYING ON BEHALF OF THE CYBER LEADERSHIP 
                            ALLIANCE

    Mr. Rapp. Thank you, Chairman Ratcliffe, Chairman Guthrie, 
Mr. Richmond, and Ms. Davis, for this opportunity to come here 
and testify in front of you on this very important topic of 
public-private partnerships and work force development. I am 
here representing the Cyber Leadership Alliance, which is a 
501(c)(6) professional nonprofit organization. It represents 
about $20 billion worth of Indiana thought leadership and 
industry. So we are dedicated to solving the work force deficit 
through public-private partnerships.
    I would like to start my testimony by telling a story that 
really illustrates the perspective from which we come from, and 
that is, my own son, Urban, went to a public school, a great 
public school in Indiana. While he was there, he was an average 
student. That is much better than I did when I was growing up, 
so I was OK with that.
    So he was an average student and he came out of that high 
school. One day, I came downstairs and he was on the computer, 
and I asked him, what are you doing? He said, well, a couple of 
friends of mine, we rented some server space and we have taken 
a bunch of modules off of Gary's mod and we have programmed 
them all together, and right now we are hosting a game for 
people all around the world.
    So I asked him, well, where in the world did you get 
interested in something like that? Where did you learn how to 
do it? His answer to me was YouTube University. So--now, that 
is by far the cheapest university I have paid for to date.
    The point that I am trying to illustrate is that when we 
think about solutions to work force and how we learn, we need 
to be creative and disruptive when necessary. We need to look 
at new concepts such as proposals to use coding as a foreign 
language requirement in school, for new approaches, like the 
National Minority and Technology Council's concept of resource 
centers to reach out to underserved communities. We need to 
think about tying our data from our skill-producing 
institutions, our higher education directly to the employers.
    We do things at Cyber Leadership Alliance, being a 
501(c)(6), we positioned ourselves to be kind of a neutral 
ground between academia, industry, and Government, where we can 
take subject-matter expertise from across different verticals 
and bring them together to solve these problems where we are 
less threatened by individual motivations or agendas.
    We believe that these public-private partnerships have to 
provide value to their partners. So it is difficult to ask a 
private industry to take part in something that takes them away 
from providing value for their shareholders. So we have to be 
conscious of what they must do to stay in business.
    We also think that it is important to capitalize on each 
other's skills and expertise, and that way we can reduce 
redundancy, we can operate more efficiently, and we can 
capitalize on the subject-matter expertise of the individuals 
and the partnership.
    So I look forward to answering any questions that you may 
have for me today, and thank you for having me.
    [The prepared statement of Mr. Rapp follows:]
                 Prepared Statement of Douglas C. Rapp
                            October 24, 2017
    Thank you, Chairman Ratcliff and Chairman Guthrie and Members of 
the Homeland Security Subcommittee on Cybersecurity and Infrastructure 
Protection and Subcommittee on Higher Education and Workforce 
Development of the Committee on Education and Workforce for holding 
today's hearing on the extremely important topic of Public-Private 
Solutions to Educating a Cyber Workforce. As technology continues to 
connect us in ways that create synergy and solve complex problems more 
efficiently, so must we connect our public and private organizations to 
do the same. By integrating, understanding, and accepting our 
respective capabilities and differences, we can solve the difficult 
problem of educating a modern cyber work force quicker and more 
efficiently. The Cyber Leadership Alliance, a 501c6 industry non-profit 
that represents the cybersecurity thought leadership of more than $20 
billion dollars of Indiana industry, is dedicated to finding solutions 
to reducing the cybersecurity work force deficit through effective use 
of public-private partnerships.
               indiana: a case study in cyber partnership
    Indiana has long recognized the value of public-private 
partnerships. One need only to look at the Office of the Indiana 
Secretary of Commerce to see an example of a successful and enduring 
public-private partnership. Other successful public-private 
partnerships span utilities, emergency response, and other areas.
    Indiana is a State of collaboration that has figured out how to 
bring stakeholders to the table specifically in cybersecurity. Indiana 
has built coalitions across Government, military, and industry to take 
a holistic approach to cybersecurity. Five specific examples of 
cybersecurity public-private partnerships are illustrated below:
    Indiana National Guard Cyber Incident Response Plan.--The Indiana 
National Guard Cyber Incident Response Plan was the first integrated 
response plan in the State targeted at a State-wide cybersecurity 
incident. Through public-private collaboration during development, this 
plan was developed to define the role of State military cyber assets 
while coordinating the integration of State military, public, and the 
private sectors.
    Indiana National Guard Cybersecurity Working Group.--The Indiana 
National Guard Cyber Security Working group was the State's first 
formal public-private group to meet on a consistent basis and share 
information regarding significant cybersecurity issues. The group 
initially consisted of public entities such as the National Guard, 
Indiana Department of Homeland Security, the Indiana Utility Regulatory 
Commission, FBI, and others. Private entities followed including Rook 
Security, Vespa Group, Pondurance, and Citizens Energy to name a few. 
This group no longer exists as three separate initiatives have arisen 
to fulfill the functions that were identified in this group.
    Crit-Ex (Critical Infrastructure Exercise).--Crit-Ex was sponsored 
by the Indiana Department of Homeland Security, Indiana Office of 
Technology, the Indiana National Guard and was managed by the Cyber 
Leadership Alliance. The event, which is the first of its kind, brought 
together 2 Federal agencies, 8 State agencies, and 15 private-sector 
organizations. The exercise was formulated to explore the intersection 
between critical infrastructure and cybersecurity. Partnerships between 
the Government agencies and private organizations made during the 
exercise are helping prevent major incidents in our current high-threat 
environment. An important footnote is that while Crit-Ex was 
groundbreaking and spawned other initiatives, it has not been repeated 
in Indiana due to lack of funding and competing demands on Government 
resources.
    Indiana Cybersecurity Economic Development Plan.--In 2016, the 
Secretary of Commerce of the State of Indiana Victor Smith, directed 
the creation of a State Cybersecurity Economic Development Plan as a 
component of his economic development strategic sector plan. Completed 
in early 2018, the plan was created by 19 noted subject-matter experts 
with input gathered during 7 cybersecurity town halls around the State 
of Indiana. Input from over 200 stakeholders from private industry, 
academia, Government, and the military provided the data that shaped 
the final report. The plan gives significant attention to cyber work 
force development and recognizes it as one of strategic 5 Lines of 
Effort. The report has been published and is currently available from 
the Indiana Department of Workforce Development (IEDC).
    Indiana Executive Council on Cybersecurity.--The Indiana Executive 
Council on Cybersecurity can be traced back through the working group 
for the Crit-Ex initiative to the Indiana National Guard Cybersecurity 
Working Group. The counsel, created by Executive Order under former 
Governor Mike Pence and continued by Governor Eric Holcomb is made up 
of government (local, State, and Federal), private-sector, military, 
research, and academic stakeholders. The mandate of the counsel is to 
collaboratively increase Indiana's cybersecurity posture and maturity. 
With 28 Council members, 9 subcommittees, and more than 150 advisory 
members, the Council's first deliverable is a comprehensive strategy 
plan to Governor Holcomb by September 2018. One of the council's focus 
areas is cyber work force development.
                 addressing the cyber workforce crisis
    Currently, Indiana is approaching the shortage of cybersecurity 
work force professionals like many other States--through its academic 
institutions. Indiana currently has 31 higher education institutions 
that offer cybersecurity education, 6 R1-R3 Research Centers, and 7 
DHS/NSA Cybersecurity Centers of Excellence. However, the Cyber 
Leadership Alliance believes that the popular methodology of recruiting 
self-selected college-trained graduates to meet the cyber work force 
demands is not only flawed but rather that anyone suggesting that as a 
solution is at best incapable of simple math. A visit to CyberSeek.org, 
an on-line cybersecurity work force development tool created in a 
public-private partnership between the National Initiative for 
Cybersecurity Education (NICE), Comp-TIA, and Burning Glass will 
immediately invalidate that solution.
    The partners within the Cyber Leadership Alliance believe that the 
most effective way to address the current cybersecurity talent crisis 
is by taking a holistic approach. Only by creating and following a 
long-term process of ``growing your own'' can you solve this problem. 
We have modeled that process and are currently proposing it to the 
Indiana Department of Workforce Development in the form of an 
application for a SkillUp! grant.
            the cyber leadership alliance skillup! solution
    The SkillUp! proposal is governed by a public-private partnership 
referred to as the Cyber Leadership Alliance Coalition (CLAC) and plans 
to inform, educate, grow, and retain an Indiana-based work force, with 
jobs awaiting them post-(re)training at the most critical levels of 
commerce. The SkillUp! solution is based on the following tenants:
    Cybersecurity Workforce Development efforts must be driven by 
public-private partnerships.--No one private entity, industry sector, 
branch, or level of Government should attempt to ``own'' cybersecurity.
    Cyber Public-Private partnerships should be run by or always 
include non-profit industry organizations.--These organizations provide 
a neutral ground where the direction of the project is more likely to 
be driven by the needs of the industry rather than political agenda or 
personal profit. Additionally, these organizations attract subject-
matter experts from across many sectors and industries.
    Cyber Public-Private Partnerships must provide value to its 
partners.--These partnerships must understand and not be threatened by 
each other's agendas. Businesses need to understand that Governments 
are trying to solve complex problems while competing for limited 
resources. Government needs to understand that businesses can only 
participate in partnerships if they can afford to work at the rate at 
which the Government is willing or able to pay. The allure of an 
appointment or invitation to a Government partnership fades quickly 
when weighed against the responsibility of creating value for the 
shareholders.
    Cyber Public-Private Partnership must reduce redundancy and 
capitalize on core competencies.--Participants in partnerships should 
be vetted for their expertise and ability to produce results. Competing 
interests and inclusion for any other reason than expertise is 
counterproductive to measurable results.
    Cybersecurity public-private partnerships should capitalize on and 
use the most accurate data available.--Whenever possible, the creation 
of cybersecurity work force should directly correlate to the needs of 
the market. Partnerships should receive demand data directly from 
employers and match those needs to the programs and institutions that 
produce the required skills.
    Cybersecurity Public-Private Partnership must be creative and 
disruptive when necessary.--The work force deficit in cybersecurity is 
showing little signs of getting better. Current methodologies are 
routinely failing to produce the required result through the 
traditional method of granting block funding to Government-subsidized 
higher education. This problem will only be solved with careful 
analysis, accurate data, and creative and disruptive ideas. Ideas such 
as allowing coding to be utilized to fulfill a foreign language credit 
in high school or offering incentives to cybersecurity professionals to 
purchase a house within a State's borders could produce unprecedented 
results if resources and political support are given.
    Thank you for the opportunity to be here today and I look forward 
to answering any questions that you may have.

    Mr. Ratcliffe. Thank you, Mr. Rapp. The Chair now 
recognizes Mr. Jarvis for 5 minutes.

STATEMENT OF DAVID JARVIS, SECURITY AND CIO LEAD, IBM INSTITUTE 
                       FOR BUSINESS VALUE

    Mr. Jarvis. Chairman Guthrie, Chairman Ratcliffe, Ranking 
Member Davis, Ranking Member Richmond, and distinguished 
Members, I am honored to appear before both committees today to 
discuss the insufficient supply of cybersecurity skills, to 
protect the economic and National security interests of the 
United States and the global digital infrastructure.
    I work at IBM as part of the IBM Institute for Business 
Value, which explores research and reports on emerging business 
and technology issues, connecting our clients with leading 
practices. I primarily focus on cybersecurity and the various 
aspects surrounding the discipline.
    To understand IBM's approach to skills and talent for 
cybersecurity, it is important to understand the people behind 
our security brand. We have roughly 8,000 subject-matter 
experts around the world. Since 2015, IBM security has hired 
nearly 2,000 into its security business. We must intelligently 
manage and struggle for scarce talent daily.
    Simply put, cybersecurity professionals are not produced by 
the education system in the United States in the quantities or 
with the correct hard and soft skills needed. The education 
system is not aligned to produce a work force that can defend 
us from today's cybersecurity threats.
    There are many estimates as to the size of the skills gap 
and how long it may take to close. While the size of the gap 
certainly indicates the severity of the problem, the bigger 
point is, unless we better align our education system with the 
core attributes and skills needed in cybersecurity, the Nation 
will continue to be at risk.
    I would like to start by thanking you for your leadership 
with the House passing the Perkins Career and Technical 
Education Act twice. The recent letter signed by 59 Senators 
gives hope the Senate will soon act, as well. Thank you again 
for passing the bill which IBM believes will help students get 
the right education for today's jobs.
    Second, IBM urges Congress to ease the pathway to jobs for 
new-collar workers. This involves tapping professionals who may 
not have a traditional college degree but have the necessary 
technical skills and aptitudes. To expand new-collar skills, 
IBM is pursuing and experimenting with a multitude of 
approaches activity the entire supply chain of talent. We are 
utilizing the new education model P-TECH. In the United States 
and other countries, P-TECH connects high school, college, and 
the world of work for historically disadvantaged populations. 
P-TECH starts with an employer committing to students that they 
will be first in line for a job if the school teaches them the 
core and technical skills needed.
    The cornerstone for this program is industry partners 
articulating the skills needed to be taught. IBM security is 
currently partnering with programs specifically for 
cybersecurity in New York and Maryland. IBM seeks out military 
veterans who are by nature well aligned to cybersecurity 
positions. We recently announced we will hire 2,000 U.S. 
veterans over the next 4 years across our business. Veterans 
are a natural fit for a new-collar approach, bringing their 
skills and talents, but not necessarily formal degrees.
    IBM is also driving education programs for middle and high 
schools. Our IBM Cyber Day for Girls events Nation-wide provide 
middle-school-aged girls with the opportunity to learn more 
about cybersecurity careers from female leaders in the field, 
reaching them at a critical age.
    We are also partnering with community colleges to build the 
skills of the future through our community college skills 
accelerator. With growing numbers of community colleges 
offering cybersecurity programs, they are an increasingly 
important source of talent and they should be sufficiently 
supported and nurtured.
    To address the different skill and education needs of new-
collar workers, employers need to build a local cybersecurity 
ecosystem that provides a robust support program for new hires 
and supports on continuous learning and upscaling. Employers 
need to participate in regional partnerships with work force 
development programs, secondary schools, and technical and 
vocational schools. Examples of partnerships between employers 
and educators include joint cybersecurity curriculum 
committees, externships for local instructors to keep their 
skills fresh and relevant, the sponsorship of cyber teams, and 
programs with local middle/high-school students to generate 
interest in the field.
    The Federal Government should adopt a new-collar approach 
to reach into expanded sources of labor. Federal agencies 
should explore the P-TECH model for work force development 
strategies that they can improper. By indicating what it takes 
to be first in line for a job, they can help address their own 
cybersecurity work force needs.
    IBM believes new-collar workers can be an important 
component of the Nation's overall approach to tackling the 
cybersecurity skills gap. By not tapping into underutilized 
sources of talent across the country and supporting and 
nurturing it, we are doing a disservice to everyone and not 
securing ourselves as well as we could.
    Finally, as Congress looks to reform the Higher Education 
Act, a good starting point is to eliminate existing regulatory 
obstacles imposed between individuals and cybersecurity 
careers. For example, work-based learning is a critical source 
of skills, particularly in cybersecurity. However, the Federal 
work-study program prohibits more than 25 percent of funds 
administered by a college or university from use off-campus for 
relevant internships or other work-based learning with private-
sector employers.
    Eliminating the restrictions would increase the flexibility 
of students and institutions of higher education. Thank you, 
Members of both committees, for the opportunity to present 
IBM's thoughts, strategies, and activities on improving 
cybersecurity education and your consideration of this 
testimony. Thank you.
    [The prepared statement of Mr. Jarvis follows:]
                   Prepared Statement of David Jarvis
                            October 24, 2017
    Chairman Guthrie, Chairman Ratcliffe, Ranking Member Davis, Ranking 
Member Richmond, and distinguished Members, I am honored to appear 
before both committees today to discuss the insufficient supply of 
cybersecurity skills and the increased demand to fulfil important 
cybersecurity positions to protect the economic and National security 
interests of the United States and the global digital infrastructure.
    In my testimony, I will describe the cyber threat landscape, the 
skills needed to protect against those threats, what IBM is doing to 
promote those skills including our ``new-collar'' approach, and 
finally, what the Government should do to improve the supply of 
cybersecurity skills and jobs.
    To set the stage, I work at IBM as part of the Institute for 
Business Value, which explores and researches emerging business and 
technology issues impacting a variety of industries. We report insights 
from that research and provide practical guidance to the market and our 
clients. I primarily focus on cybersecurity and the various aspects 
surrounding the discipline--whether it be technical, societal, or 
economic.
    Cybersecurity professionals are not produced by the education 
system in the United States in the quantities or skill levels needed. 
This is a problem that isn't going away anytime soon. However, with 
great challenges come creative solutions that many dedicated 
individuals and organizations are pursuing. At IBM, we believe that 
some cybersecurity jobs can be filled through a new-collar approach 
that involves tapping professionals who may not have a traditional 
college degree but do have the needed technical skills and aptitudes. 
This approach was outlined by our CEO, Ginni Rometty, at the end of 
2016, as a way to address skills gaps across technology-related 
sectors.\1\ By better aligning the education system with industry we 
can develop the skills needed to fight cyber crime, fill jobs, and 
reduce data breaches.
---------------------------------------------------------------------------
    \1\ https://www.usatoday.com/story/tech/news/2016/12/13/ibms-
rometty-talk-new-collar-jobs-trump/95370718/.
---------------------------------------------------------------------------
                      ibm's security capabilities
    IBM Security is the largest security vendor selling exclusively to 
enterprises. IBM manages 35 billion security events per day for our 
clients--one of the largest security intelligence operations in the 
world. IBM Security has 17,000 clients in 133 countries, 8,000 
employees, including researchers, developers, and subject-matter 
experts focused on security, in 36 IBM Security locations around the 
globe. In sum, we ``see'' a lot in cyber space and have also dedicated 
over $2 billion in research and development to ``out innovate'' the 
cyber criminals.
    To understand IBM Security, it's important to understand the people 
behind the brand. As part of the 8,000 subject-matter experts we have 
on board, IBM Security has:
  <bullet> Researchers analyzing software for vulnerabilities.
  <bullet> Incident Response teams (IBM X-Force IRIS) in the wake of a 
        breach conducting forensic investigations and working with law 
        enforcement.
  <bullet> Interim CISOs that help organizations scale and address 
        cybersecurity planning.
  <bullet> Malware, spam, and Dark Web analysts, spending hours 
        understanding the tactics criminals are using to target and 
        infiltrate organizations.
  <bullet> Security Intelligence analysts working in and deploying 
        Security Operation Centers (SOCs) across the globe.
    Since 2015, IBM Security has hired nearly 2,000 additional experts 
into its Security business, including world-class developers, 
consultants, and research professionals.
    Additionally, IBM Security is developing and using cognitive 
cybersecurity systems like Watson to augment the skills and 
capabilities of security teams. With the ability to interpret huge 
volumes of structured and unstructured data, staff with cognitive tools 
can better reveal patterns and put security events in context. Using 
data mining, machine learning, natural language processing, and human 
computer interaction, cognitive systems provide evidence-based 
recommendations to help cybersecurity experts act with confidence, at 
speed and scale.
                        today's security threats
    Today, just about all the breaches we hear and read about involves 
the exfiltration of data. A cyber criminal breaks into a system, gets 
access to information, downloads that data, and extorts it for profit 
or influence.
    The IBM X-Force Threat Intelligence Index 2017 found in 2016 more 
than 4 billion records were leaked, more than the combined total from 
the two previous years, redefining the meaning of the term ``mega 
breach.'' In one case, a single source leaked more than 1.5 billion 
records. The industries experiencing the highest number of incidents 
and reported records breached were information and communications, 
Government, and financial services. Mega breaches have continued to 
penetrate all sectors with unabated threats in 2017.\2\
---------------------------------------------------------------------------
    \2\ https://www.ibm.com/security/xforce/research.html.
---------------------------------------------------------------------------
    Additionally, late last year IBM and the Ponemon Institute unveiled 
the results of the annual Cyber Resilient Organization study, which 
found businesses are continuing to fail when it comes to preparing for 
and responding to cyber attacks. Companies are being attacked 
successfully more frequently, they cannot keep business operations 
going effectively or recover quickly, and most have not done adequate 
planning or preparation for an incident.\3\ Considering the vast 
digital dependencies for organizations, it is no longer a matter of 
``if'' but a matter of ``when'' an incident will happen.
---------------------------------------------------------------------------
    \3\ ``The 2016 Cyber Resilient Organization'', Ponemon Institute 
and IBM, November 2016.
---------------------------------------------------------------------------
    We are seeing security attacks and techniques continue to evolve 
across skill level, geography, and sectors. It is now estimated to be 
one of the largest illegal economies in the world, costing the global 
economy more than $445 billion dollars a year.\4\ To put this in 
perspective, $445 billion is greater than the GDP of more than 160 
different countries, including Ireland, Malaysia, Finland, Denmark, and 
Portugal, among many others.
---------------------------------------------------------------------------
    \4\ Net Losses: Estimating the Global Cost of Cyber Crime, Center 
for Strategic and International Studies, June 2014.
---------------------------------------------------------------------------
    The most sophisticated thieves operate like a well-oiled global 
business. They build development tools and collaborate on software. 
They share knowledge about targets and vulnerabilities. They recruit, 
educate, promote, and reward their work force. In fact, each successful 
attack proliferates the skills, tools, and ecosystem because hackers 
often reuse malware and other vulnerabilities that they know are proven 
to work. Think of it as on-the-job education.
    As the threat emanates from a variety of angles, we need to respond 
with innovative cyber defenses including a work force with a diverse 
set of skills that are constantly updated. Persistent and well-funded 
cyber crime organizations are constantly probing a range of 
vulnerabilities. They look for simple misconfigurations of installed 
software, but also have the capability to carry out sophisticated brute 
force, phishing, and malware conflicts. The spread of attacks from 
simple to complex requires a broad set of skills and capabilities to 
respond--across skill levels, information technology defenses, 
organizations, and geographies.
    Due to the current lack of skills, cyber crime creates chronic 
infections of Government, enterprise, and individual systems that take 
months (if not years) to heal, and are corrosive to the economy and 
public trust.
 the skills challenge and needed capabilities to defend against cyber 
                                threats
    An organization is only as good as the people that are part of it. 
The challenge of recruiting and retaining the best technical and 
business professionals is a constant worry for any organization, even 
more so in the cybersecurity field.
    The cybersecurity talent issue isn't limited to a few sectors; it 
runs across the board from Government to education to health care and 
all industries. Strong talent is needed in all communities from rural 
farms that increasing rely on information technology to financial 
service companies in large urban areas.
    There are many estimates as to the size of the shortage of 
cybersecurity professionals. Frost & Sullivan predicts that the growing 
gap between available qualified cybersecurity professionals and 
unfulfilled positions will reach 1.8 million by 2022.\5\ While the size 
of the gap certainly indicates the severity of the problem, the bigger 
point is that unless we change and improve our approach dramatically, 
the gap will be an elusive thing to catch up to and close.
---------------------------------------------------------------------------
    \5\ ``The 2017 Global Information Security Workforce Study: Women 
in Cybersecurity.'' Frost & Sullivan. March 2017. https://
iamcybersafe.org/wp-content/uploads/2017/03/WomensReport.pdf.
---------------------------------------------------------------------------
    Many leaders believe that not enough is being done about the 
shortage. According to a report by the Center for Strategic and 
International Studies and Intel Security, three out of four security 
professionals surveyed believe their Government is not investing enough 
in cybersecurity talent.\6\
---------------------------------------------------------------------------
    \6\ ``Hacking the Skills Shortage: A study of the international 
shortage in cybersecurity skills.'' Center for Strategic and 
International Studies and Intel Security. 2016. https://www.mcafee.com/
ca/resources/reports/.
---------------------------------------------------------------------------
    The inherent complexities that make cybersecurity challenging have 
created this severe skills shortage. Even though Government, industry, 
and education are attempting to address the problem through many 
different initiatives, the entire supply chain of talent is stressed. 
Industry is facing a shortage of qualified candidates with the 
necessary hands-on skills and product experience. Those working as 
security professionals today are under constant pressure, as they need 
continuous education and professional development to keep up with 
evolving technologies and the threat landscape. They are also 
challenged to find time to properly mentor and educate new hires.
    Academic institutions want to meet industry needs, but they are 
struggling to evolve and develop curriculum to keep pace with industry 
shifts and technological advances. There is also a shortage of 
qualified teachers and professors at both the university and community 
college levels, as many are lured away to industry by competitive 
salaries. Finally, students interested in pursuing the cybersecurity 
field are faced with defining their own career path from a myriad of 
options and then obtain the significant education and experience 
required.
    At the most basic level, employers must ensure that software, 
networks, and cyber defenses are correctly installed and configured. 
Skills for these broadly-needed services are low to middle but required 
throughout the economy in large numbers.
    At the other extreme, chief information security officers (CISOs) 
for large enterprises and Government agencies are required to 
orchestrate a broad set of defensive capabilities and respond to a 
bewildering array of breaches. CISOs are highly-skilled positions with 
significant education and experience who must balance managing their 
own security operations with advising, guiding, and educating their C-
suites and boards of directors.
    What skills should new cybersecurity professionals focus on? No 
matter the educational background of the professional, there are some 
essential elements. These elements can be classified into two groups: 
Core attributes and skills.
    Core attributes can be considered a general disposition beneficial 
to security professionals--a set of common personality traits and 
learned behaviors. This includes being investigative, methodical, 
analytical, ethical, reliable, constantly learning, a good 
communicator, and able to team with others to solve challenging 
problems. Skills include both technical and workplace-related 
abilities. A new security professional may not have all these skills at 
first, but focusing on them over time will provide greater career path 
flexibility and the foundation for technical or business-focused 
security leadership positions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      developing cybersecurity skills: the ibm new-collar approach
    IBM's new-collar approach focuses on skills--not degrees earned--
and emphasizes work-based learning and core skills like teaming and 
adaptability.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The cornerstone of a new-collar approach and a major component of 
the overall strategy necessary to address the cybersecurity skills gap 
is to seek new sources of skills that may not have been pursued in the 
past, due to a lack of traditional academic credentials.
    A new-collar approach is used at IBM to fill both technical and 
non-technical jobs. We have identified some specific cybersecurity jobs 
as suitable places to start. This includes ``builders'' such as 
integration engineers and cybersecurity developers, ``operators'' such 
as threat monitoring analysts and security operations center analysts, 
and ``communicators'' such as technical writers and security awareness 
educators.
    A new-collar approach focuses on skills--not degrees earned--as a 
prerequisite to find and attract nontraditional candidates with diverse 
backgrounds and skill sets. Once hired, these new employees are 
expected to strive for continuous learning and professional growth. A 
new-collar approach recognizes there are alternative ways to learn the 
skills needed. For example, respondents from a CSIS and Intel Security 
study ranked hands-on experience and professional certifications as 
better ways to acquire cybersecurity skills than a degree.\7\
---------------------------------------------------------------------------
    \7\ ``Hacking the Skills Shortage: A study of the international 
shortage in cybersecurity skills.'' Center for Strategic and 
International Studies and Intel Security. 2016. https://www.mcafee.com/
ca/resources/reports/rp-hacking-skills-shortage.pdf
---------------------------------------------------------------------------
    To expand new-collar skills, IBM is experimenting with a multitude 
of approaches to educate and develop the next generation of 
cybersecurity professionals. These include creating and developing new 
education programs, going beyond the traditional classroom and making 
new connections and sharing information.
    IBM is utilizing the new education model Pathways in Technology 
Early College High School (P-TECH) in the United States and other 
countries specifically for cybersecurity. Currently, we are working 
with Excelsior Academy at Newburgh Free Academy in New York (a 
partnership between the Newburgh Enlarged City School District, IBM, 
and SUNY Orange Community College) and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="27770a7362646f67644655514255">[email&#160;protected]</a> in Baltimore, 
Maryland (a partnership between Carver Vocational Technical High 
School, IBM, and Baltimore City Community College) on cybersecurity-
specific pathway programs.
    The P-TECH model of schools has four key elements:
  <bullet> Alignment of the Program of Study for grades 9-14 with the 
        skills needed by an employer.
  <bullet> Mentors for all students from the employer.
  <bullet> Internships for students from the employer.
  <bullet> A commitment that graduating students will be first in line 
        for a job with the employer.
    P-TECH model could be adopted by Federal agencies to create job 
opportunities for students, and as an approach for their work force 
needs. Over 60 P-TECH schools exist throughout the United States 
including in my home State of Rhode Island and there are many more on 
the way.
    We are partnering with community colleges to build the skills of 
the future through our Community College Skills Accelerator. This 
program provides access to documented skills roadmaps, access to free 
IBM tools, including platforms, services, and software, access to IBM 
mentorship and subject-matter expertise, including collaboration on 
curriculum review and creation and pathways to employment, including 
internships and apprenticeships.
    With growing numbers offering cybersecurity programs, community 
colleges are an important source of talent. However, fewer than 30 
percent of the roughly 1,100 public and independent community colleges 
across the United States offer a cybersecurity degree, certificate, or 
course.\8\ Those that offer cybersecurity classes have difficulty 
updating the content and finding the needed teaching staff. The 
additional demands of accreditation, distributional requirements, and 
financial aid requirements make cybersecurity education very 
challenging for educators.
---------------------------------------------------------------------------
    \8\ ``2016 Fact Sheet.'' American Association of Community 
Colleges. http://www.aacc.nche.edu/AboutCC/Documents/
AACCFactSheetsR2.pdf; IBM Institute for Business Value interview with 
Casey O'Brien, Executive Director & Principal Investigator, National 
CyberWatch Center. February 21, 2017.
---------------------------------------------------------------------------
    Programs like the National Security Agency and the Department of 
Homeland Security sponsored National Centers of Academic Excellence and 
the National Science Foundation's Advanced Technological Education 
program that supports regional cybersecurity programs at 2-year 
colleges, are very important resources for these community college 
programs.
    IBM is also driving education programs for middle and high schools. 
This includes an initiative with ISECOM, a non-profit organization 
which produces the Hacker High School project--open cybersecurity 
courses designed specifically for teenagers to develop critical 
thinking and hands-on, technical skills. As part of this collaboration, 
IBM is providing sponsorship, expert guidance, and IBM Security tools 
for new Hacker High School lessons focused on the skills needed for an 
entry-level security operation center (SOC) analyst--a position that is 
in demand. IBM also hosts ``Cyber Day for Girls'' events Nation-wide to 
provide middle school-aged girls with the opportunity to learn more 
about cybersecurity careers, reaching them at a critical age.
    IBM partners with hundreds of universities and colleges world-wide 
to develop the next generation of cyber talent. Through our Academic 
Initiative program, we provide access to skills and software at no 
charge. We also sponsor and recruit at key university cyber-
competitions, including ones at the Rochester Institute of Technology, 
New York University, and the National Collegiate Cyber Defense 
Competition.
    Military veterans bring unique talents, mindset, and skills that 
are attractive to the technology industry, and even more so to 
cybersecurity positions. The mission focus mentality and 
professionalism are attributes needed to protect and defend networks. 
IBM recently announced it will hire 2,000 U.S. veterans over the next 4 
years as part of the company's broader pledge to hire 25,000 workers by 
2020. Veterans are a natural fit for the new-collar approach. We 
developed the IBM Veterans Employment Accelerator to focus on education 
and certification programs for military veterans and participate in 
Veteran recruiting events and transition summits.\9\
---------------------------------------------------------------------------
    \9\ ``Citizen IBM Blog--Veterans Employment Accelerator.'' IBM 
website, accessed March 19, 2017. https://www.ibm.com/blogs/citizen-
ibm/tag/ibm-veterans-employment-accelerator.
---------------------------------------------------------------------------
    Women are globally underrepresented in the cybersecurity profession 
at 11 percent, much lower than the representation of women in the 
overall global work force. In 2016, women in cybersecurity earned less 
than men at every level.\10\ IBM is actively recruiting 
underrepresented groups through conferences and organizations like the 
International Consortium of Minority Cybersecurity Professionals 
(ICMCP), the Grace Hopper Celebration and Women in CyberSecurity 
(WiCyS).\11\ Additionally, we have an internal network called Women in 
Security Excelling (WISE), an IBM professional development group that 
also sponsors external events like the ``Cyber Day for Girls'' programs 
in middle schools and provides scholarships to attend security 
conferences.\12\
---------------------------------------------------------------------------
    \10\ https://iamcybersafe.org/wp-content/uploads/2017/03/
WomensReport.pdf.
    \11\ International Consortium of Minority Cybersecurity 
Professionals website, accessed April 3, 2017. https://icmcp.org/; 
Women in CyberSecurity website, accessed April 3, 2017 https://
www.csc.tntech.edu/wicys/.
    \12\ ``How IBM Supports Women Building their Careers in Cyber 
Security.'' IBM Jobs Blog, November 7, 2016 https://blog.ibm.jobs/2016/
11/07/how-ibm-supports-women-building-their-careers-in-cyber-security/.
---------------------------------------------------------------------------
    IBM's efforts to build a cybersecurity work force prove to be 
working--as mentioned, we have built a business of over 8,000 experts 
including an additional 2,000 since 2015--although job openings at IBM 
Security are still plentiful. That work force is a result of reaching 
new sources through our new-collar recruitment--in fact, nearly 20 
percent of our security hires since 2015 have fit into this ``new-
collar'' category.
    Our success provides some guidance to efforts to create policies 
around building a cybersecurity work force, but in many ways, is 
dependent on the willingness to address the overall challenges in the 
education system.
   what should the government do to address cybersecurity skills and 
                             capabilities?
    IBM urges the committees to examine four areas for changed 
Government activity that will improve the cybersecurity work force. 
Those four areas are listed below and then discussed in more detail:
  <bullet> Reauthorize Perkins CTE.--The Government needs to improve 
        the alignment between the education system and the skills 
        needed for today's jobs through reauthorization of the Perkins 
        Career and Technical Education Act and the Higher Education 
        Act.
  <bullet> Explore P-TECH Model.--Federal agencies should explore the 
        P-TECH model for work force development strategies they can 
        implement.
  <bullet> Remove Obstacles to Cybersecurity Skills.--Broad reforms to 
        higher education appear necessary due to poor performance on 
        inclusion, graduation rates, defaults, and alignment with 
        today's jobs. A good starting point is to eliminate existing 
        regulatory obstacles imposed between individuals and 
        cybersecurity careers.
  <bullet> Expand New-Collar Hiring.--The Federal Government should 
        adopt a new-collar approach to reach and expand sources of 
        labor.
    Alignment through Reauthorization of Perkins Career and Technical 
Education.--The education system is poorly connected to the job market. 
Schools and colleges often do not offer students relevant classes in 
emerging areas such as cybersecurity and do not emphasize core 
attributes like teaming and communication in a program of study. 
Aligning the education system with the skills needed for today's jobs 
would more effectively spend Federal dollars to help our Nation's 
students acquire the skills that they need and employers are demanding.
    Recently, the House passed a reauthorization of the Perkins Career 
and Technical Education Act. Although the Senate has failed to take up 
the legislation, recently 59 Senators sent a letter to the Chair and 
Ranking Member of the Senate HELP Committee urging action. The letter 
called for:
  <bullet> Align CTE programs to the needs of the regional, State, and 
        local labor market;
  <bullet> Support effective and meaningful collaboration between 
        secondary and post-secondary institutions and employers;
  <bullet> Increase student participation in work-based learning 
        opportunities; and
  <bullet> Promote the use of industry-recognized credentials and other 
        recognized post-secondary credentials.
    IBM urges the Senate to move forward on reauthorization of the 
Perkins Career and Technical Education Act, and to incorporate these 
principles into its reauthorization of the Higher Education Act.
    Explore P-TECH Model Participation by Federal Agencies.--The P-TECH 
model is based on a collaboration between employers and educators to 
improve alignment of the existing education system with needed job 
skills. Developing programs of study and educational materials is the 
responsibility of our Nation's educators, but P-TECH employers play a 
vital role by telling what skills are necessary ``to be first in line 
for a job''. Defining skills needs, providing mentors, internships, and 
committing that graduates will be ``first in line for a job'' are all 
employer responsibilities in the P-TECH model.
    Federal agencies are major employers and should explore the work 
force development strategies developed and tested by the private sector 
through the P-TECH model schools. Federal agencies could join other P-
TECH employers that provide information to work force boards and 
educators on needed job skills. Federal agencies could provide work-
based learning opportunities including mentors and internships. Both 
student and potential Federal employers benefit from enhancing skills 
learned through improved alignment and work-based learning.
    Eliminate Obstacles on the Critical Pathway to Cybersecurity 
Skills.--The education system has appalling key performance metrics in 
areas relevant to cybersecurity work force development--first-
generation entrants into higher education are scarce, completion rates 
are low, misalignment of skills and jobs is high, and default rates on 
student loans are astronomical.
    Adopting the critical pathway approach used in health care to 
improve quality can help improve the cybersecurity work force by 
highlighting the most problematic steps in the education process.
    For example, work-based learning is a critical source of skills--
particularly in cybersecurity. However, the Federal work-study program 
prohibits more than 25 percent of funds administered by a college or 
university from use for off-campus for relevant internships or other 
work-based learning with private-sector employers.
    Eliminating the restrictions would increase the flexibility of 
students and institutions of higher education to use their Federal work 
study allocations for part- and full-time off-campus cooperative 
education and other work-study purposes. Rather than forcing work-study 
grants to be used for dining hall jobs, students could get internships 
that were relevant to their majors and provided critical work 
experience and skills.
    IBM urges Congress to return flexibility to students and higher-
education institutions in their use of work-study funds.
    New-Collar Approaches.--Finally, IBM recommends that organizations 
expand their recruitment of the new-collar cybersecurity work force. 
For a more robust new-collar approach, employers need to create new-
collar career pathways in their work force strategy with five 
components:
  <bullet> Skill Maps
  <bullet> Broader Recruitment
  <bullet> Education Ecosystem
  <bullet> Work-based Learning
  <bullet> Retention
    Document the skills and experience that are essential today and in 
the future. Use that skill map to help design clear career paths for 
security functions, focusing on what skills are needed in different 
cybersecurity roles at each level. In recruiting, substitute the skill 
map for degrees as prerequisites. The skill map should determine when 
academic degrees are included in hiring requirements. Do all security 
hires really need 4-year university degrees? Do not miss a potential 
star by imposing arbitrary degree requirements before job candidates 
they get a chance to prove themselves--realize that skills and 
experience can come from a variety of places.
    Recruit new-collar workers from sources beyond traditional higher-
education sources. Seek students who are earning cybersecurity 
certificates, AAS, and Associate degrees at community colleges; don't 
limit efforts to a select set of 4-year and research universities. As 
mentioned earlier, veterans and separating service personnel are 
another new-collar work force that has critical skill attributes such 
as leadership, teaming, and adaptability. IBM has specific recruitment 
programs for veterans and separating armed services personnel that 
allow their skills to be mapped against IBM job roles.
    To address the different skill and education needs of new-collar 
workers, employers need to build a local cybersecurity ecosystem that 
provides a robust support program for new hires and focuses on 
continuous learning and upskilling. Employers need to participate in 
regional partnerships--with work force development organizations, 
secondary schools, and technical and vocational schools. Examples of 
partnerships between employers and educators include joint 
cybersecurity curriculum committees, externships for local instructors 
to keep their skills fresh and relevant, the sponsorship of cyber 
teams, and programs with local middle and high schools to generate 
interest in the field. These groups are always looking for subject-
matter experts and mentors that employers can provide to improve the 
cybersecurity pipeline.
    Work-based learning and ``earn and learn'' strategies are critical 
for new-collar career pathways. Employ techniques like mentorships, 
internships, rotational assignments, shadowing, and other opportunities 
for new cybersecurity hires to gain experience and learn. Allow them to 
explore their options and opportunities--not everyone knows what they 
want to do right away.
    With an expanded recruiting aperture bringing new talent in, there 
must be comparable efforts to work to retain the talent. Keep employees 
engaged by providing opportunities for them to advance and keep skills 
up-to-date through classes, certifications, conferences. Cybersecurity 
is a highly dynamic field, which requires a constant refreshing of 
skills. Additionally, support existing new-collar employees from other 
functions who want to move into cybersecurity as a new career.
                               conclusion
    With the five approaches above, IBM believes new-collar workers can 
add an important component of the Nation's overall approach to tackling 
the cybersecurity skills gap. It is applicable across industry and 
Government and has tangible benefits for both employers and potential 
employees. By not tapping into underutilized sources of talent across 
the country and supporting and nurturing it, we are doing a disservice 
to everyone and not securing ourselves as well as we could. There are 
many innovative approaches to improving cybersecurity education 
happening all across the country, but to truly address the 
cybersecurity skills gap we need to scale these approaches, including 
new-collar ones.
    Thank you Members of both committees for the opportunity to present 
IBM's thoughts, strategy, and activities on improving cybersecurity 
education and your consideration of this testimony.

    Mr. Ratcliffe. Thank you, Mr. Jarvis. Chair now recognizes 
Dr. Ralls for 5 minutes.

   STATEMENT OF R. SCOTT RALLS, PRESIDENT, NORTHERN VIRGINIA 
                       COMMUNITY COLLEGE

    Mr. Ralls. Thank you, Chairman Ratcliffe, Chairman Guthrie, 
Chairman Richmond and Davis, and Members of the committee. 
Thank you for the population to testify the afternoon.
    The road to economic recovery from the Great Recession has 
run right through the middle of America's community colleges. 
As we emerge into a new era of net job growth, community 
colleges again stand at the forefront in addressing talent and 
skills gaps. Because we are overrepresented by students from 
first-generation, low-income, and minority backgrounds, 
community colleges are uniquely situated to provide a gateway 
to economic opportunity that must draw--for fields like 
cybersecurity that must draw from a wider population to address 
overall talent gaps.
    An era where these gaps are keenly felt is the field of 
cybersecurity, a skill set where jobs are growing three times 
faster than for IT jobs in general, which are growing at a rate 
much faster than other occupational areas. In the greater 
Washington region, where my college is located, cybersecurity 
job postings have grown 74 percent since 2014, and we have had 
the most new job postings over the past year--more than twice 
as many as any region of the country for the past year.
    Filling this gap, meeting this challenge, and in turn 
providing a great economic opportunity for our students is our 
most pressing work force priority. Consequently, we are not 
just pursuing a unidimensional strategy, but moving 
simultaneously down multiple fronts. These include scaling. 
Four years ago, as was mentioned, we grew a cybersecurity 
certificate program into a separate applied associate's degree, 
growing from an initial 50 students to approximately 1,500 
today. We were one of the early certified academic excellence 
programs with the National Security Agency, and today we share 
our experience with other colleges as one of four National 
resource centers.
    Ours is a practical program that emphasizes application, 
certifications, and participation in meaningful competition. We 
are constantly looking for ways to scale to meet our growth 
challenges by hiring new faculty, pursuing opportunities to 
endow faculty to overcome the gap between what is top faculty 
pay and average industry pay, and leasing, purchasing, and 
renovating multiple facilities.
    We articulate--which means that we seamlessly connect to 
eight senior higher education partners so students can complete 
a bachelor's degree, which is typically a minimal requirement 
for cybersecurity employment. At two of our six campuses, 
students can complete their bachelor's degree on-site, 
including at our new regional work force center in Woodbridge, 
which houses our cyber range and our on-site degree completion 
program with George Washington University.
    We aggressively draw from the rich talent pool of 
transitioning military veterans at our college and in our 
community. We have partnered closely with Marine Corps 
University to provide concentrated surge educational 
opportunities, developed a unique technology boot camp for 
veterans called Uncommon Coders, articulated military 
occupational specialty credit into our cyber degree program, 
and worked with our State legislators to gain the ability to 
charge lower tuition rates for our active-duty military in 
these programs.
    We reach into high schools, underserved communities, and 
untapped populations. We have a team called sySTEMic that 
specifically reaches into public schools to provide STEM 
outreach, including cyber, where we partner with Northrop 
Grumman, who helps us to fund and support training high school 
educators who can provide instruction and dual enrollment 
through our programs.
    We have a very unique, complementary, and mutually 
beneficial partnership with the great work force development 
agency Year Up, who recruits, develops internship 
opportunities, financially supports students who are enrolled 
in our cyber and IT programs. This year, we have dedicated all 
of our Federal Perkins funding to draw female students through 
our cyber and IT programs.
    Because as you have heard, the cyber work force population 
is only 11 percent female, 12 percent minority. To meet the 
skills gap, that has to increase.
    Now, quickly in moving on, we apprentice and aggressively 
seek out internship opportunities with our cyber students. We 
do this through Year Up, with special employer relationships 
like we have with the U.S. Senate Sergeant-at-Arms, also a 
special new relationship with Amazon Web Services, where we 
support and sponsored the first AWS apprenticeship program for 
the hardest-to-fill jobs that are out there right now in cloud 
security.
    We certify with the assistance of our unique Virginia Fast 
Forward program, which is the first performance-funded work 
force certification program in the Nation. It allows us to 
provide valuable certifications in areas like CompTIA 
Security+, Certified Ethical Hacker, at only one-third of the 
actual cost. Cybersecurity job postings typically require 
certifications more so than IT in general.
    Finally, key to all this is working very aggressively to 
learn and seek feedback and react to the information we receive 
from our valuable employer community, our rich cybersecurity 
employers in our region. A secret weapon for us is the Northern 
Virginia Technology Council, which is the largest employer 
group of its type in the Nation. We are very proud to be their 
first academic partner and with them sponsored the skills 
talent assessment for our region just last year.
    In sum, we are taking a multi-faceted approach to address 
the cybersecurity work force challenge in our region. We do so 
not only because it meets the needs of our employers, but most 
importantly it provides such great opportunity for our 
students. Last year, our college was recognized by the research 
of Stanford economist Raj Chetty as having one of the highest 
percentages of students who grew up in the bottom 20 percent of 
income but emerged into the top 20 percent as adults after 
attending a college such as ours.
    We are very fortunate to support a region where the 
economic opportunities which include cybersecurity job 
opportunities make that possible. We are also humbled to be an 
institution that provides that educational ladder to help 
students of all backgrounds to be able to grasp those 
opportunities. Thank you.
    [The prepared statement of Dr. Ralls follows:]
                  Prepared Statement of R. Scott Ralls
                            October 23, 2017
    To the Chairs and Members of the committees: Thank you for the 
opportunity to testify this afternoon.
    The road to economic recovery from the Great Recession ran through 
the middle of America's community colleges, and as we emerge into a new 
era of net job growth, community colleges are again at the forefront in 
addressing talent and skills gaps. We are positioned to serve students 
from lower income, first generation, and minority backgrounds. 
Accordingly, we are uniquely capable of providing a gateway to economic 
opportunity and careers that must attract a wider population to fill 
job needs.
    An area where these needs are keenly felt is in the field of 
cybersecurity. Information technology jobs are growing at a rate much 
faster than most other occupational areas. Faster still is the growth 
in jobs in cybersecurity, a field growing three times more rapidly than 
information technology jobs in general.
    My name is Scott Ralls and I am president of Northern Virginia 
Community College, or NOVA as we are known in the region we serve, a 
region which has the highest concentration of cybersecurity jobs in the 
United States. In the greater Washington region, cybersecurity job 
postings have grown 74% since 2014. Our area has more than twice as 
many overall new job postings than any other area in the country.
    Filling this gap and meeting this challenge is an economic 
opportunity for the students at our college. Last year, our college was 
ranked in the social mobility research of Stanford economist Raj 
Chetty, as having one of the highest percentages of students who grew 
up in the bottom 20% of income brackets as children, but emerged in the 
top 20% of income earners as adults. We are very fortunate to serve a 
region that has the economic opportunities to make that possible. We 
are humbled to be the institution providing the educational ladder to 
help our students get there.
    Taking this challenge on requires more than a one-dimensional 
program approach. It requires that we pursue a multi-faceted strategy 
that includes:
    Scaling.--Four years ago we grew a cybersecurity certificate 
program into a separate, applied associates degree, and have expanded 
the program from an initial 50 students to nearly 1,500 today. We began 
as one of the early Certified Academic Excellence programs with the 
National Security Agency. Today we share our experience with and guide 
other colleges as one of four National rsource centers. Ours is a 
practical, work force-focused program that emphasizes application, 
acquisition of certifications, and participation in meaningful 
competition. To meet the challenges of growth we are hiring new 
faculty. To overcome the gap between top community college faculty pay 
and average industry pay, we announced the first-ever endowed chair in 
the State community college system and are pursuing other opportunities 
to attract top talent. To meet our capital needs we are leasing, 
purchasing, and renovating multiple facilities.
    We articulate, meaning that we seamlessly connect to nine great 
university partners so students can complete a bachelosr degree. This 
is important as it is typically a minimum requirement for employment in 
cybersecurity with Federal agencies and contractors. At two of our six 
campuses, students can complete their bachelor degree on-site including 
at our new Regional Workforce Center in Woodbridge. This center houses 
our cyber range and the on-site completion program with George 
Washington University.
    We aggressively draw from the rich talent pool of transitioning 
military and Veterans at our college and within our community. 
Currently active-duty service members and veterans make up 15% of our 
student body. Four years ago, we partnered with the United States 
Marine Corps and Marine Corps University to provide concentrated 
``surge'' educational opportunities. We have developed a unique 
technology boot camp for Veterans called Uncommon Coders and worked 
with our State legislators to offer our courses at a discount to 
service members around the globe. We have made it possible for Marines 
with technology-related military occupational specialties to receive up 
to 23 credit hours upon entering our cyber program.
    We reach into high schools, underserved communities, and untapped 
populations. We have a team called SySTEMic that specifically connects 
with local schools to provide STEM hands-on STEM experiences, including 
experiential learning in cybersecurity. With a generous grant from 
Northrup Grumman, we partner with school systems to certify instructors 
to become NOVA adjunct faculty delivering dual enrollment cybersecurity 
programs directly in our high schools. We have a unique and mutually 
beneficial partnership with the Nationally-recognized work force 
development organization, Year Up. Year Up recruits, develops 
internship opportunities, financially supports and provides 
supplemental education to underprivileged youth enrolled in our IT and 
cyber programs. And this year, we have dedicated all of our Federal 
CTE/Perkins funding to efforts to attract female students into 
information technology and cybersecurity fields. We recognize that the 
best opportunity to grow the cybersecurity work force is to address the 
underrepresentation of minorities and women in the cyber work force. 
Specifically, the cybersecurity work force is reported to be only 11% 
female and 12% minority. By launching a new awareness campaign 
highlighting successful local women in IT and cyber and by providing 
new summer camps and clearer education pathways we hope to move the 
needle on retaining more women in the critical needs area.
    In addition, we aggressively seek apprenticeship and internship 
opportunities for our cyber students. We create these opportunities 
through our Year Up collaboration and special partnerships we have made 
with multiple groups. To help meet the need for cloud security talent, 
judged to be the most difficult skillset for employers to find today, 
we recently initiated a partnership with our local Workforce Board, 
Apprenti, and Amazon Web Services to create Amazon Web Services' first 
East Coast apprenticeship program. This consists of a Veterans 
Associate Cloud Consultant Apprenticeship Program and a new Incumbent 
Cloud Support Associate Apprentice program to assist fulfillment and 
data center employees moving into technology opportunities. At its 
core, this is a program to move current Amazon employees into higher 
paying positions that Amazon could not otherwise fill.
    We certify. Recently our State launched Virginia Fast Forward 
Program, the first performance-funded work force certification program 
in the Nation. This enables us to provide education and certifications 
such as COMPTIA Security+ and Certified Ethical Hacker at only a third 
of the market cost. This is key to job opportunity in cyber, as 
cybersecurity job postings are more likely to require certifications 
than information technology jobs in general.
    Finally, and key to supporting all of our efforts, we aggressively 
learn and seek feedback from the cybersecurity employers in our region. 
A vital resource for us is the Northern Virginia Technology Council, 
the largest employer group of its type in the Nation. We are honored to 
be their first academic partner. Last year, we collaborated with NVTC 
to conduct the Greater Washington Technology Needs Assessment. This 
assessment identified cybersecurity skills as the second-most in demand 
technical skill in our region behind only computer programming skills.
    We are taking a multi-faceted strategy to address the cybersecurity 
work force challenge in our region. We do so not only because it meets 
employer needs, but most importantly, it helps our students understand 
the needs of northern Virginia employers like General Dynamics, Booz 
Allen, and CACI. But to solve this problem requires an even deeper 
engagement between industry, education, and State and Federal partners 
all working toward a common goal of increase awareness, making cyber 
pathways clear and easy to navigate and providing work-learn 
opportunities in greater numbers.

    Mr. Ratcliffe. Thank you, Dr. Ralls, and thanks again to 
all of our witnesses today for your testimoneys. I now 
recognize myself for 5 minutes of questions.
    Dr. Cambone, I want to start with you. First of all, do you 
agree with the premise that the cyber skills gap is getting 
worse? If so, with so much focus in recent years about 
expanding cyber educational opportunities, why do you think 
that is the case?
    Mr. Cambone. Yes, the gap is growing. Second, in part, the 
difficulty I believe is not just with the number of students we 
have coming through the system, but the number of qualified 
faculty to teach, reaching back into high schools and even into 
grade schools. So as a way of addressing that, our 
cybersecurity center is actually holding what amounts to boot 
camps for high school teachers to try to begin to teach them 
the essentials.
    Mr. Ratcliffe. So let's set aside for a second displaced 
workers and others that can really help build and allow us to 
develop a cyber work force and focus on the kind of students 
that go to Texas A&M or some of the other universities. Is 
there any type of private-sector involvement in setting the 
cybersecurity courses that Texas A&M offers? Are there specific 
skill needs that either the private sector or the Government is 
telling you that need to be addressed?
    Mr. Cambone. Yes to both. We are fairly tightly coupled 
with our colleagues over at NSA who have taken in over 20 
students over the last 3 years in direct response to their 
demand pull, if you will. On the private side, as an example, 
we were told two semesters ago that we needed to do more secure 
coding.
    For an institution of our size, we turned around a secure 
coding course in the following spring. So, yes, there is a 
feedback loop. I will be with our academic advisory committee, 
which is mostly private sector, Friday afternoon for just this 
purpose.
    Mr. Ratcliffe. So that sort-of leads into the question I 
had for Mr. Rapp. With respect to the cyber leadership 
alliance, does it play any role, can it play any role in 
advising--be a matchmaker, if you will, between businesses and 
schools?
    Mr. Rapp. Absolutely. We work very closely with Purdue 
University and a new program that they have called CAREER 
Makers. Right now, we are submitting a proposal with several 
private companies to actually place a CAREER Makers in an 
underserved community in downtown Indianapolis. The Cyber 
Leadership Alliance with take that information directly from 
the employers and play matchmaker with the cohorts of students 
that are in Purdue and the other universities, such as Ivy Tech 
and Indiana University. So absolutely, that is primarily our 
function.
    Mr. Ratcliffe. Mr. Jarvis, let me shift to you. IBM is a 
very large company. How does IBM go about finding and 
recruiting cyber workers that may not have, say, a traditional 
educational background, a bachelor's degree or relevant 
certifications?
    Mr. Jarvis. Sure, sure. So, I mean, obviously, 
traditionally, you know, we partner with and work with hundreds 
of universities around the world to get our talent globally. 
But when you look at kind-of these new sources, these, you 
know, new-collar workers, as well, this recently just--we just 
basically recently announced this earlier in the year, but, you 
know, we are beginning to work more with community colleges. We 
recruit at a lot of different security conferences and 
organizations, whether it is women in cybersecurity or the 
ICMCP, as well, that Mr. Richmond talked about before.
    So, I mean, it is basically with those partnerships kind-of 
building our skills, building our talent pipeline, and with P-
TECH, as well. I mean, we are trying to address the issue 
really at all elements of the game from high school all the way 
through community college through veterans programs, if we are 
recruiting at military bases, things like that. Those are all 
standard things that we typically do. We are looking to expand 
to do more, as well.
    Mr. Ratcliffe. Terrific. So there are a lot of folks that 
are going to ask a lot of questions today, but the bottom line 
I think for a lot of us is, you know, exactly how does the 
Government and the private sector best create an environment to 
incentivize both traditional students, and displaced workers, 
to make a career in cybersecurity? What as Members of Congress 
can we do to facilitate that? Very quickly, let me start left 
to right and give you all a chance to answer.
    Mr. Cambone. Well, sir, it is a combination of funding 
always. But in this case, I don't think it is merely dollars. I 
think we have really got to extend from the universities 
backward into the high schools. We have to look after the 
education of the next cohort of educators. So we need to focus, 
as well, on students who are going to go on to take their PhDs 
so that they, in turn, can do the teaching we are going to 
need.
    Mr. Ratcliffe. Very quickly, Mr. Rapp, anything you want to 
add to that?
    Mr. Rapp. I just think that we need to reduce some 
barriers, relook at OPM's requirements for hiring cybersecurity 
professionals, and where they fall on the GS level to increase 
that, security clearances and nationality issues.
    Mr. Ratcliffe. Terrific. Mr. Jarvis.
    Mr. Jarvis. Yes, just in addition to what I said in my 
testimony, I think those are the primary things. But really, we 
are looking for just better alignment between the education 
system and the demands that we have.
    Mr. Ratcliffe. Terrific. Finally, Dr. Ralls, give you a 
quick chance to weigh in on that.
    Mr. Ralls. We have benefited greatly from the NSA programs, 
the CIE programs, also the National Science Foundation Cyber 
Watch, which is at Montgomery College. Just as we have to scale 
to meet needs, those programs have to scale, as well, to meet 
our needs to be able to provide the training and education that 
is needed.
    Mr. Ratcliffe. Terrific. Chair now recognizes my friend 
from Louisiana, Mr. Richmond.
    Mr. Richmond. Let me start with Dr. Ralls and Mr. Cambone. 
Let me just start with a basic question. Because you all deal 
with students, when they come out, is the private sector or 
public sector more attractive for them to go to? I would assume 
it is the private sector.
    Mr. Cambone. Yes, sir.
    Mr. Ralls. Our students are interested in jobs wherever 
they are. They also know that when they go into one area, 
public or private, they are going to have opportunities both 
ways because of the demand that is out there. So I don't see 
them really picking and choosing too much in that regard. They 
are interested in getting their foot in the door.
    Mr. Richmond. Well, my experience with the people with the 
skills in cyber really have a choice where they want to go, 
because of the demand. Government is so rigid--I mean, we still 
operate with this, you know, traditional office setting-type 
area, and if you go to a lot of the private-sector companies 
that are employing cyber professionals, they have a different 
workplace and workspace.
    So the question is, what can we do as Government to make 
Government more attractive for people coming out of school? So 
one idea would be, could you--could we become the industry 
standard in terms of offering continuing education or other 
ways for them to boost their skills while working for the 
Federal Government? What incentives can we give them to make 
the Federal Government more attractive, besides money, if you 
are telling me we are going to have a shortage of in-between 
1.4 million and 1.8 million?
    Mr. Cambone. Right. So the civil service arrangements, as 
you point out, are Teddy Roosevelt in their origins. They need 
to be updated. Among the things that we ought to take a look at 
is the career progression. These students, the people coming 
into the work force are not going to stay in a job for more 
than 5 years. While they are in that job, they need to be given 
important and interesting things to do.
    If there is added the professional training--education, as 
you are talking about, that could be an incentive. But I 
wouldn't expect them to stay more than 5 years. Then you want 
to bring back the people who are out 10 years and bring them 
back at the proper level of the Government and not force them 
back into that civil service arrangement. Then you get the best 
of both worlds.
    Mr. Richmond. Any ideas, Dr. Ralls.
    Mr. Ralls. Yes, one is internship opportunities. I think as 
I mentioned, we have a unique internship with the U.S. Senate 
Sergeant at Arms scholarship for service, expanding that 
program. Right now, that program is limited to 4-year students. 
Community college students can get in through a backdoor 
through partnering with 4-year institutions, but expanding 
that, such as the 2017 Cyber Scholarship Act that is been 
suggested.
    Another area that is not necessarily private or public, but 
cuts across both is the requirements for Federal contracting. 
So certain things can limit students who are coming out of 
colleges, whether 4-year or 2-year, particularly for 2-year 
students into roles because of those either experience 
requirements that kind-of put them in a double-edged sword that 
they may not have the years of experience that are required, 
and so--but they have to be able to get that experience, or 
also many of the Federal contracting requirements are very 
degree-based, require 4-year credentials and are not as skills-
based. So that can limit students who may be coming out of a 
community college, looking at a foothold in a job role, and 
then going back and getting their bachelor's degree. So looking 
at contracting requirements is another area to pay attention 
to.
    Mr. Richmond. Mr. Jarvis, very quickly, what are the 
challenges associated with setting aside the conventional 
wisdom that degrees equals skills and integrating these 
strategies into work force development plans?
    Mr. Jarvis. Yes, no, that is an excellent question. I mean, 
I think there is a transition that needs to happen. I think 
that is what at IBM have been advocating for here in the past 
year is really trying to shine a light on the issue to look 
past degrees and to look at skills to help us with our most 
challenging and pressing information technology skills gaps, 
you know, not only in cybersecurity in particular.
    I do think it is a bit of a culture change, and I do think 
it will take a little bit of time, but that is why we are 
trying to advocate for our clients and for others in the field 
that are--you know, that are suffering from the same gaps to 
expand the aperture and to look at new sources of talent.
    Mr. Richmond. Very quickly, Dr. Ralls, what can we do to 
increase the number of minorities and women and African-
Americans in the cyber space?
    Mr. Ralls. Well, I think all of us--and that includes what 
we are doing at our community college--we have to be very 
aggressive in our approaches to pull students through. I mean, 
in areas like computer programming and cybersecurity, we do not 
see as many female students and you don't see as many female 
students in the work force. So that is where we have to work 
closely with our public schools. We have to change our 
marketing materials. We have to have different forms of 
outreach in that regard.
    We also have to have role models in our programs so that we 
have to make sure that we are recruiting and aggressive about 
recruiting female and minority teachers. The leader of our 
cybersecurity program is female, and I do think that makes a 
difference, as well. So I think we each have to be aggressive 
in our own ways to make sure that students, regardless of 
gender or regardless of background, know that the opportunities 
are there, but also know that the ladder is there to be able to 
get there. That is why I think community colleges are so 
important in this role, to help provide a front end for that 
ladder to those opportunities, which many students may not 
think is possible for them.
    Mr. Ratcliffe. I thank the gentleman. Chair now recognizes 
the Chairman of the Subcommittee on Higher Education and 
Workforce Development, Mr. Guthrie.
    Mr. Guthrie. Thanks. It is interesting what Mr. Jarvis just 
said. The Ranking Member, Ms. Davis, and I have been looking at 
programs that don't necessarily--education systems that allow 
people to have careers that don't necessarily require degrees 
if the skills needed don't require degrees. I think it would be 
very helpful, even not just for people in high schools moving 
forward, but also people trying to get relocated, understanding 
there is a skills gap. They are in--maybe even have a degree, 
but not in the right program, not in the degree to take 
advantage of the opportunities that are out there, and then 
being able to plug back in is something we really want to look 
at.
    Mr. Rapp, I was just kind-of--as I was looking preparing 
for this hearing, my son did information technology, computer 
science and so forth. What are the skills--and there is a 
shortage there, too. As that, that worked out, because he was 
able to get a good job, but it is not good for the country, so 
we got to fill that in. So I guess the question is: What is the 
difference between somebody in information technology, the 
skills, and cybersecurity? I know they overlap, but what just 
kind of distinct differences?
    Mr. Rapp. They do. You know, in conversations with the CSOs 
that represent our membership, the foundation for both tend to 
root itself in that analytical side and the coding side, 
awesome. The biggest skills that our members look forward, that 
our membership looks forward is the problem-solving and the 
critical thinking skills.
    What our CSOs say is that they can teach somebody the 
environment that they are working in. Certainly a foundation in 
risk and risk mitigation, but what is mostly lacking as a skill 
set from the students that are being produced today is that 
critical thinking and problem-solving ability.
    Mr. Guthrie. So you can teach someone to code. The question 
is, can you teach someone to figure out how somebody is going 
to undo their code or try to get into their code and think 
through that----
    Mr. Rapp. That is correct.
    Mr. Guthrie. Is that the way to put it? So, Dr. Cambone, 
last week, the Education Department urged schools and colleges 
to strengthen their cybersecurity measures in response to all-
on attacks in which cyber criminals have sought to extort money 
from educational institutions on the threat of releasing 
sensitive data from student records. These records contain 
sensitive information and must be protected with stronger 
security.
    What additional steps do you think institutions with 
cybersecurity programs can take to ensure they are developing a 
robust cybersecurity work force that can help prevent these 
types of intrusions?
    Mr. Cambone. Well, first, we need to make sure that the--
that which we teach we actually do.
    Mr. Guthrie. Is that----
    Mr. Cambone. Right? So it is not enough to teach these 
things. We have to do them. I am happy to say that I have had 
over the last 3 weeks a number of conversations with the 
university system-level CSOs, as well as the folks at the A&M 
level, and they are quite attentive to the need. So they are 
doing the things that you would expect them to do.
    Mr. Guthrie. So what would be some of the examples of 
things that they are----
    Mr. Cambone. Well, you know, we have moved past merely 
watching the firewalls, and we are now very attentive, for 
example, not just to the presence of odd e-mail in the system, 
but we are actually now capable of putting out the alerts very 
quickly on the phishing attacks that one gets--I just had one 
today, as a matter of fact, describing in detail precisely what 
that attack looks like, what you are supposed to do in response 
and the like. So there is a very active set of measures in 
place.
    Mr. Guthrie. OK, thank you. Thank you for that. Mr. Jarvis, 
in your testimony and when you wrote and you discussed that the 
fact that the House has passed the Strengthening Career and 
Technical Education for the 21st Century Act, what we calmly 
call here the Perkins Act, the bill is now awaiting Senate 
action. If Perkins CTE is reauthorized, how do you think it 
will help employers more effectively address their 
cybersecurity work force needs?
    Mr. Jarvis. Yes, certainly, certainly. Well, I mean, simply 
put, you know, education needs to produce the people that we 
need to hire. I think we believe that in passing CTE, you know, 
that is going to build the pipeline for us in the long term and 
it is going to support that pipeline in the long term for us, 
because we just can't look at it in terms of a--you know, it is 
just not a point problem, right? We need to do this for many, 
many years, and I think it is going to keep and expand the pool 
of applicants and the pool of experts that we need.
    Mr. Guthrie. I think you are right. Been really looking at 
this with Ranking Member Davis and I in discussing a lot of it 
is, a generation ago, back when I was in high school, a 
generation ago, that was 30-something years ago, we really got 
away from technical and pushing training, and we are paying for 
it now. So we can't just take a short-term view, which we 
absolutely need. We also need to take a long-term view about 
what is good for the overall system, so a generation from now, 
we are not saying, well, we should have addressed, done more. 
So that is important.
    Mr. Jarvis. Exactly.
    Mr. Guthrie. Well, thank you very much. My time is about to 
expire, but I will yield back.
    Mr. Ratcliffe. Thank the gentleman. Chair now recognizes 
the Ranking Minority Member of the Subcommittee on Higher 
Education and Workforce Development, Ms. Davis, for 5 minutes.
    Ms. Davis. Thank you. Thank you very much, Mr. Chairman. I 
want to relate to the comments of my colleague, Mr. Guthrie, 
because I think if we could open our minds and our hearts in 
many ways on this issue of how do you create better pathways 
for young people, not necessarily relying on a more traditional 
college track, and doing something I think in Switzerland they 
call it permeable, so that you have young people moving from 
certification to--into the colleges and back, and 
certification. I think there is a different route that is 
possible out there. That is also attributable to the issue that 
I think we are dealing with right now.
    How do you create that better for young people so they 
aspire to those areas, but there is also a lot of prestige in 
their moving forward so that you get a lot more community 
acceptance? I think it all sort of fits together. Dr. Ralls, I 
wondered if you could speak a little bit to the NOVA program 
for a second, because I think you were able to do some work 
particularly in helping to transition veterans and students 
more seamlessly into the job market there. What--are there some 
surprises in trying to do that? How do you see being able to 
scale more of those efforts as you look at other programs 
connected so strongly to the community college system?
    Mr. Ralls. Well, I will start first with high schools and 
working with the high schools. So one of the things that many 
people do not realize is one of the fastest-growing areas of 
community college enrollment is dual enrollment with high 
school students. Essentially--when Mr. Jarvis is talking about 
P-TECH, that is a dual enrollment strategy. So what we have to 
do a better job of is taking our pathways into programs into 
high schools.
    So one of the challenges for us is that--as challenging as 
it is for us to employ cybersecurity professionals at the 
community-college level, you can imagine at the high-school 
level. So what we really have to do--and I think this is 
important around how we collaborate through Perkins funding and 
other things--is to make sure our pathways connect with each 
other so that students can start in high school and finish and 
move through community colleges and move on through 
universities. I think paying attention to that is very 
important.
    We pay very, very close attention to our veterans' 
population, because we see that is such a rich resource for the 
cybersecurity work force in our region. We have over 7,000 
veterans at our college, one of the largest populations of 
veterans in the United States. They bring with--well, you know, 
all the marvelous attributes.
    We have then similarly with public schools, we are working 
to reach in to particularly our partners with the Marine Corps, 
working with military before they transition out, first making 
sure that they articulate, because they pick up technical 
skills along the way in terms of military occupational 
specialties, being very aggressive about that, being very 
nimble about how we provide education to them over very 
concentrated short periods of time, what we call surge 
programs, and then making sure that the education they are 
receiving in the military transitions through us, as well.
    So again, this is much about not just waiting for students 
to come to us, but to reach into those valuable pools to make 
sure students are starting along a valuable pathway as they 
move forward.
    Ms. Davis. Yes, thank you. I appreciate that, because in 
some ways, I think what you are suggesting is there may be 
opportunities that maybe for someone who has been trained in a 
number of the industries within the military to shorten their 
training period when it comes to cybersecurity. You are talking 
about months, not years, and maybe there are other programs 
that have done something similar.
    If I may just, Mr. Jarvis, going to you quickly, because I 
know that one of the needs you have in finding trained 
personnel is sometimes going to other countries where you have 
an easier time doing that. Is it fair to say that if we don't 
answer the need with our own students that a number of 
companies will continue to do, as you have to do today, to look 
elsewhere?
    Mr. Jarvis. I am not really expert on that particular area 
for IBM, but, I mean, you know, we are going to look for the 
talent where we need to find the talent. We want to develop it 
wherever we can. We have a global business, so we are obviously 
looking all across the globe for that talent, wherever it may 
be.
    Ms. Davis. Yes. Well, we want to make sure that companies 
like IBM find those resources in our own country. Yes. One or 
two--well, I think my time is up, Mr. Chairman, so perhaps I 
know I am going to hear everybody else asking the same 
questions. Thank you very much.
    Mr. Ratcliffe. Thank the gentlelady. The Chair now 
recognizes the Chairwoman of the full committee of Education 
and Workforce, the gentlelady from North Carolina, Ms. Foxx.
    Ms. Foxx. Thank you very much. I do have some questions, 
but I have to first make a comment about Mr. Rapp's talking 
about the fact that we need people who have problem-solving and 
critical thinking skills and say to all of my colleagues and 
all of the panelists, if we continue to use that train word, 
which I hate so much, you are not going to encourage critical 
thinking. So I want to ask you all, Dr. Ralls, to take it out 
of your vocabulary and all of us.
    Honestly, there is no better example of what I am talking 
about than his just saying that. You remember, you train 
animals and you educate people. So if you want critical 
thinking, you have got to be in the education business.
    Mr. Rapp, I will come back to you. Indiana included the 
SkillUp! grant program in the combined State work force 
development plan the State developed to implement the changes 
passed as part of WIOA. In your experience, how has the 
SkillUp! program been integrated with Indiana's broader work 
force development efforts?
    Mr. Rapp. Indiana has done an outstanding job, working 
particularly with the Department of Workforce Development under 
the last commissioner, Steve Braun, who spent a lot of time 
taking data and ensuring that the data was correct so it 
accurately reflected what the needs were of the State.
    In accordance with what he found through that, the SkillUp! 
program now is driven by the demand of the employers as that 
data was collected directly from the employers. So that goes to 
my point earlier that--in public-private partnerships, we have 
to get as close to the source of data as possible to make it 
accurate, and then we must tailor with the resources that we 
have currently--we must tailor those limited resources to the 
demand so that we can have the best effectiveness of those 
programs.
    Ms. Foxx. So would you say a little bit more about how you 
are measuring the success?
    Mr. Rapp. Right now, the success that we measure is 
literally by both the unemployment rate specifically for 
cybersecurity. We do rely heavily on a public-private 
partnership from NICE, CompTIA, and Fireglass, I believe, the 
Cyberseek program. What that program does is it surveys all the 
States for the job listings and then the number of jobs that 
are filled. So that is fairly accurate data, so that is how we 
are able to measure that, particularly within that area.
    I will say with 32 universities in Indiana that offer 
cybersecurity curriculum with seven different centers of 
excellence, DHS, NSA, and six R1 through R3 research 
institutions, we are very proud of all of those things. But we 
are still not yet gaining ground.
    Ms. Foxx. Mr. Jarvis, I am a strong advocate for earn and 
learn programs that provide students and job seekers the 
opportunity to learn on the job. Nobody knows better than 
employers what skills are needed to succeed in a particular 
career. So what suggestions do you have to better align our 
academic programs with potential on-the-job learning 
opportunities?
    Mr. Jarvis. Certainly, certainly. I think that one of the 
things that we look for in terms of learning--we were talking 
about critical thinking a little bit earlier--is we look across 
the board, and especially in cybersecurity, to make sure that 
our candidates are explorers, they are consultants, they are 
students, they are guardians, and they are also problem 
solvers. I think those are all things that that can come 
through earn and learn.
    Whether it is through the P-TECH model, where we have 
students basically guaranteed internships as part of their 
education program, so they are both learning and earning and 
learning some more as part of the process, or if it is through 
internships or apprenticeships or other programs that we have, 
and we think those are all important and are part of the 
solution.
    Ms. Foxx. Well, thank you all very much. In my clips 
today--I haven't had a chance to read it--there is an article 
that says United States needs to move past its fixation on the 
bachelor's degree, studies say. It is in Education Week by 
Catherine Gewertz. I am going to get a copy of it and see, 
because I know this is an issue that is come up several times 
here this morning.
    Thank you all very much. I yield back, Mr. Chairman.
    Mr. Ratcliffe. Thank the Chairwoman. Chair now recognizes 
the Ranking Member of the full committee on Education and 
Workforce, Mr. Scott, the gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. I thank the witnesses 
for being with us today.
    Mr. Cambone, you went to great lengths to say how you 
fashion your curriculum to address the needs of the industry. 
Is there value in making sure that what is in your curriculum 
in Texas is the same that is in the curriculum in Virginia, so 
that people who present with a cybersecurity degree will be 
presenting the same credentials?
    Mr. Cambone. Hmm, it is an interesting question. My 
instincts say yes. But my respect for the academic integrity of 
the various institutions leads me to think and to expect that 
there will be some differences. That is not bad. So what we 
have--one of our members is very active in a National 
curriculum consortium. What they do is share both best 
practices and where the leading edge of education is going to 
answer, in part, what you are suggesting, which is there needs 
to be some conforming of the knowledge that is being imparted.
    Mr. Scott. Well, who would put together the standard?
    Mr. Cambone. You know, I think that is best left to the 
educators. I think that, as I say----
    Mr. Scott. A consortium, as you have suggested, so that you 
would have some kind of independent judge?
    Mr. Cambone. I think that would be very helpful. If we did 
the cyber grant arrangement, that would be a mechanism for 
doing that kind of conforming.
    Mr. Scott. Thank you. Mr. Jarvis, last year, the EEOC 
issued a report on diversity in the tech industry. The findings 
were that racial discrimination and ethnic discrimination was 
wide-spread in the tech industry, such that if they stopped 
discriminating, there would not be a shortage of workers in the 
tech industry. Is the cybersecurity part of the tech industry 
plagued with that problem?
    Mr. Jarvis. I don't know specifically in terms of--I mean, 
I couldn't speak to specifics in terms of the problem. I mean, 
I do think we need to do a lot more outreach. I do think we 
need to do a lot more recruitment. I do think that IBM does a 
fairly good job at reaching out to underserved groups 
traditionally and reaching for that. I think for cybersecurity, 
it is just as important, talking about some of the professional 
organizations that are out there that we recruit at. I think 
that is one thing that can be done, but I think there is other 
things, as well.
    Mr. Scott. I understand that there is a net downsizing at 
IBM, yet you still import thousands of H-1B guest workers. Can 
you explain the apparent discrepancy?
    Mr. Jarvis. That is not really my area of expertise, but we 
could probably get more information for you if you need it.
    Mr. Scott. OK, that would be good. Dr. Ralls, can you tell 
us what barriers there are to apprenticeship and internships in 
the cybersecurity area?
    Mr. Ralls. Well, to have internship and apprenticeships, 
you have to have a strong commitment from the employer 
community. Many employers do step up. That is one of the great 
things for us is our partnership with Year Up, which has 
managed I think across the country, is doing a remarkable job 
in cultivating internships for deserving young people that are 
moving into IT and cyber and finance areas. So that is been a 
great partnership for us, working with companies like Amazon, 
now that is sponsoring its first apprenticeship.
    Apprenticeship is new to IT. So I think it is evolving in 
that regard. It does take a great deal of employer commitment. 
One of the things with our apprenticeship programs, for 
instance, if you look at our apprenticeship with Amazon Web 
Services, which is focused around cloud security, that is 
primarily based around certifications. It is a 16-week program 
where we provide the related training, so it is security plus, 
Linux plus, plus they get the AWS architect certification.
    One of the things that Congress can do is look at the 
opening up the notion of what certifications mean in the 
workplace as a workplace credential, areas like Pell Grants for 
short-term certifications that are meaningful and have rigor--I 
think can open up more opportunities for apprenticeship 
opportunities and for those kinds of certification programs 
that we find are important with apprenticeship.
    Mr. Scott. Are you able to leverage the WIOA and CTE funds 
for those programs?
    Mr. Ralls. We are, for those students who are eligible, so 
with, for instance, our AWS apprenticeship program, some of 
those students are able to be supported through WIOA, because 
they qualify. A few are also supported through a group called 
Apprenti, which is I think supported through apprenticeship 
funding. Then we also support some ourselves. So looking at how 
those opportunities are available, certainly they are all 
employees of the company and they will move into new career 
ladders or new job payment ladders as a result of their 
involvement in apprenticeships.
    So I do think apprenticeship is something that there are 
many ways to open up the doors much more than we have those 
opportunities. IT and cyber I think are rich for that because 
of the connections with particularly certification 
opportunities that can tie into some of these program areas.
    Mr. Ratcliffe. I thank the gentleman. Chair now recognizes 
the gentleman from Pennsylvania, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Chairman, thank you. Gentlemen and panel, 
thank you for bringing your experience and expertise. I want to 
start with Mr. Rapp. You know, I am proud of two institutions 
of learning I have. I have a number of them in the district, 
but in terms of cybersecurity, you know, Penn State and also in 
the northwestern part of the district, Mercyhurst, we have got 
the Tom Ridge School of Cybersecurity there in Erie County.
    Mr. Rapp, the degrees required for many cybersecurity 
programs are only 2 years in length. What advantage does a 2-
year cybersecurity credential offer over a 4-year-plus program? 
Plus, any thoughts on--for lack of a better word--micro-
degrees, less than 2-year type certification programs?
    Mr. Rapp. Well, that is a great question. What we found is 
there is different skills that are required for different 
functionalities in cybersecurity. Not every single person in 
cybersecurity needs to have a 4-year degree. That is true. So 
the rise of applied 2-year cybersecurity degrees have been 
directed toward a gap of applied entry-level cybersecurity jobs 
that are out there.
    Certifications are useful for, again, specific types of 
jobs. So I think there is a need across the spectrum for all of 
these degrees, and none of them should be discounted. I also 
believe that even beyond these degrees and certification, you 
know, when we look at what NICE has done to describe what 
skills are necessary to take part in work force development in 
cybersecurity, that we shouldn't discount aptitude testing 
outside of degrees.
    Mr. Thompson. Well, thank you. Mr. Cambone, I understand 
Texas A&M believes work force development to be a core 
component of the institution mission. How does this affect the 
education experience you provide to your students?
    Mr. Cambone. Well, sir, a very large fraction--and maybe my 
colleagues behind me can remind me--but a very large fraction 
of our incoming freshmen are first-time university students. So 
the focus is on retention of those students, bringing them all 
the way through to their graduation, because it is not helpful 
to start and not finish.
    So you begin there. Then we have talked about the 
apprenticeship programs. We have talked about the internships. 
We have talked about the hack for defense programs. All of 
those kinds of things are intimately connected with their 
development. In the engineering school, they have to at the end 
participate in what amounts to a capstone project, where a 
number of them have to get together and figure out how to 
produce an outcome.
    So all of that is part of the development of the student as 
a productive member of society and a member of the work force. 
With respect to the cyber business in particular, there are any 
number of--and I can give you a list of the extracurriculars 
that are in place--that the students, while they are not 
required to engage, find themselves wanting to engage because 
it doesn't bring them an experience that they are not going to 
get just in the classroom. So it gives them the opportunity to 
apply what they have learned as they go forward.
    So all of that, you roll all that up and you do some of the 
placement work that is necessary, then for those students to 
find jobs when they are finished, and that is how you take 
someone who is first-time university and their families to a 
position in the work force.
    Mr. Thompson. Thank you. Dr. Ralls, from your written 
testimony, I saw cybersecurity job posting growth 74 percent 
since 2014. That is amazing. At the Northern Virginia area, two 
times as likely given job opportunities here for positions, 
position opportunities. Is your program currently at capacity 
for enrollment? What specific strategies do you use for 
recruitment?
    Mr. Ralls. Well, we are not at capacity, but we do struggle 
primarily to make sure that we can acquire the instructors that 
we need. We are moving down multiple strategies in terms of 
facilities. We also have to make sure that we can look for 
strategies to pay our instructors higher rates so that we can 
keep them.
    One of the things--having the highest concentration of 
cybersecurity jobs in the country, which also means we have the 
highest concentration of valuable adjunct faculty in our 
region, and so we tap into that very aggressively. But we also 
share. We work very closely with all our partners around the 
country. I think that is the value of, for instance, like the 
NSA-CAE programs. Austin Community College was with us 
yesterday. We worked with the other 22 community colleges in 
our State, in terms of acquiring that CAE designation, and we 
also provide much of the instruction on-line--we operate the 
shared services backbone for the on-line instruction in our 
State, so many students are--at other parts of our State, in 
rural southwest Virginia, and taking cybersecurity programs 
through their institutions, but acquiring some of the classwork 
through us on-line because we have the valuable instructional 
resource in our region. We just have to look for strategies to 
get those resources out broadly into areas where they may not 
actually naturally exist.
    Mr. Ratcliffe. I thank the gentleman. The Chair now 
recognizes the gentleman from Connecticut, Mr. Courtney, for 5 
minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank both 
subcommittees for holding this hearing and to all the witnesses 
that are here. You know, listening to the sort-of to-do list in 
terms of where Congress can help, I was struck by the fact that 
as someone who sits on the Armed Services Committee, the last 
defense authorization bill that was just signed in December by 
President Obama actually raised the Cyber Command to parity 
with the full other combatant commands, which is saying 
something, you know, in terms of the fact that, you know, we 
have got to sort-of be more agile in terms of how we think 
about this issue and address it.
    Again, the nice thing about this hearing is, again, we are 
talking about pathways other than just 4-year degrees. Dr. 
Ralls, you talked about the Amazon apprenticeship program. I 
mean, Amazon is almost as big as the Pentagon it seems like 
these days. So, I mean, they obviously have a lot more 
capability in terms of taking on an apprenticeship program with 
a work force of tens of thousands of people. The challenge that 
I am hearing out there for a lot of smaller firms who are--
whether it is a small community bank that is, you know, 
terrified about cyber attacks or small defense suppliers that 
are as much a back door to cyber attacks as the large OEMs.
    It is just that, you know, they don't think in terms of 
their human resources or apprenticeship sort-of models. How we 
can sort-of get them engaged, I guess, is--you know, the 
question I was going to ask. I mean, it sounds like a really 
impressive program that you have with Amazon, but, I mean, have 
you been able to sort-of break through to smaller employers in 
terms of getting them engaged in apprenticeships?
    Mr. Ralls. Well, first, I think it is important to keep in 
mind, you know, the Amazon program is a cloud security program. 
In fact, you have to thread a pretty good needle to get into, 
for instance, the veterans program. You already have to have a 
bachelor's degree, a network plus certification, and be a 
veteran. So it is--you know, you are going to a certain place.
    But one thing that I think that is important to keep in 
mind with cybersecurity is, it is broad. Cybersecurity is 
broad. So I think all institutions are having to take a cyber 
mentality. So even though students coming out may not--for 
instance, we graduate more information technology associate's 
degree graduates of any community college in the country. IT 
graduates, networking students who are going in have a cyber 
mentality, and that is also a foothold for them to move up and 
actually gain the credentials to be technically cybersecurity.
    I think there are other places, too, that community 
colleges, if I may, are naturally inclined to help. A lot of 
times we think about attacks that are only coming through 
computers, but we are--there are more network devices now than 
there are people in the world. So technicians, facility 
maintenance have to take on new mentalities around 
cybersecurity.
    There is an OT side to cybersecurity. So, for instance, we 
are working on programs, programs that when I was in North 
Carolina we developed and here we are working--we have, for 
instance, the largest data center work force and employment in 
the country. Well, a technician today has to be able to know, 
is something a maintenance failure? Or is your HVAC system 
being hacked? Is your PLC being hacked? So I think cyber is 
really much broader than the narrow term of specific IT 
cybersecurity programs. We have to make sure we make the 
linkages in terms of that breadth.
    Mr. Courtney. I guess my point--in terms of trying to get 
employers to think about apprenticeships, just as a model----
    Mr. Ralls. Apprenticeship.
    Mr. Courtney. Yes, just, you know--I mean, so to bring it 
back to Congress, there is a Department of Labor apprenticeship 
grant program which President Trump's budget actually called 
for funding at last year's level. It was eliminated in the 
House appropriations bill. The Senate actually fully funded it. 
So those funds in Connecticut, I can just tell you, have been a 
really good enticement to get companies that never really sort-
of thought about getting involved in apprenticeships to 
actually do it, you know, to make that job and to doing it.
    I guess that is the question is: How do we entice small 
guys to get into the business of apprenticeships?
    Mr. Ralls. Yes, apprenticeship is not easy. Apprenticeship 
takes a great commitment. I worked with Siemens and Bosch--and 
I know how much investment they put in per student. So IT is 
moving more that direction, I think primarily because of the 
gaps they see. I think IT is naturally inclined that way, but I 
do think we do have to do more than just talk about 
apprenticeship. We have to have meaningful programs for 
apprenticeship. I think we also have to look broadly at being 
very aggressive around just meaningful work-based learning.
    Sometimes we have programs that aren't formal 
apprenticeship, but they are very much important because of 
that work-based learning. Because for many students coming out 
of our colleges and universities now, many of them, unlike when 
I was a student, they didn't work in high school. They didn't 
have some of those opportunities. So apprenticeship becomes 
even more important, I believe, for today's students, 
apprenticeship and meaningful work-based learning than it is 
ever had before. So I do think that is a very important area 
for us to collectively pay attention to.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Ratcliffe. Thank the gentleman. The Chair now 
recognizes the gentleman from Pennsylvania, Mr. Smucker, for 5 
minutes.
    Mr. Smucker. Thank you, Mr. Chairman. Dr. Ralls, two things 
you mentioned in your testimony I would like to follow up on. 
You had mentioned Year Up, and I would be interested in 
understanding--I wonder if you could elaborate a little more on 
the partnership that you have with Year Up. Do Year Up recruits 
attend class at your school? Or are they recruited from the 
school? If you would just elaborate on that, I would appreciate 
it.
    Mr. Ralls. Yes, Year Up is a National work force 
development organization. Started in the Northeast. A model has 
emerged--our college has been a lead in working with Europe 
because of such a complementary relationship. Essentially what 
Year Up does is it provides a 1-year experience for students, 
and it is where they gain professional workplace skills through 
supplemental instruction. They have meaningful internships. 
They receive financial support. What we provide is the 
technical instruction through our education programs through 
the community college.
    Perhaps maybe I could give you an example, though, because 
I will tell you of a student example which I think explains why 
it is such a natural fit with community colleges. One of our 
students is a great student named Darwin who last year was 
served on our community college board as the student 
representative. Darwin grew up in foster youth homes, four 
foster youth homes. He came to our college in high school 
through our outreach programs in the high school, found about 
Year Up, and became involved in the Year Up program.
    So his experience last semester, he was describing it to me 
recently, he worked 5 days a week in an internship with Freddie 
Mac. He would take special supplemental classes that help him 
in terms of making sure he has the critical thinking, the 
workplace skills that add to the value. He took two cyber 
classes with us at night at our Reston Center, and then he took 
two classes on-line.
    Then on Saturdays, he would go to our Woodbridge campus and 
work in a program that we have called--not work, we have many 
students that come and meet with our instructors on Saturdays 
to do competitions and other types of things called CyberAll. 
So Darwin is an example of the kind of individual that without 
the doors that can reach out through programs like our 
community colleges, like Year Up, it is an example of how you 
can go from the bottom 20 percent to the top 20 percent, as 
long as you have got that ladder and that work opportunity to 
get there, and Year Up is key to us as a complementary partner 
in that regard.
    Mr. Smucker. Yes, it sounds like a great program. I would 
like to follow up, as well, on the discussion on 
apprenticeships. I will go to Dr. Cambone and potentially come 
back to you, Dr. Ralls, if we have time. But I am very 
interested in apprenticeship programs, as well. One of the 
models that I have seen is a partnership with a college, a 
community college or another institution where there is an 
ability for an apprenticeship to both work on a job site and 
get a degree, whether it is an associate degree, or even a 
bachelor's.
    I guess that is my question to you. Are you doing that? Is 
there a possibility of apprentices earning a bachelor's degree 
at the same time that they would earn a certificate, some sort 
of work certificate, as well?
    Mr. Cambone. I am not precisely sure of whether that 
particular thing can be done. But this is what I do know. I 
mentioned earlier that A&M has a very close relationship with 
Blinn College. Blinn College is a very large, 2-year 
institution in the next city. We have a relationship with them 
that does take their students through apprenticeship programs, 
through the accreditation on the 2-year school matriculating to 
A&M and get your degree. So there is a ladder, as was described 
here, that can allow students to do that.
    Not all students want to do it, right? So they are happy to 
take the off-ramps and pursue their lives in the way that they 
would like. But that ladder has been built.
    Mr. Smucker. Yes, Dr. Ralls, would you like to respond to 
that, as well?
    Mr. Ralls. I think the important thing for apprenticeship 
is that we have to make sure we structure it into our programs. 
So when students go through related training, that means that 
we have to make sure, for instance, if we are offering 
certifications through a related training, that we also 
structure so that we can give that credit as it comes through.
    So I think more and more what we collectively have to do as 
educators is not look for the either/ors, but to make sure that 
those types of experiences, apprenticeship, particularly if it 
leads to certification and how we can give credit, military in 
terms of military occupational specialty, I think there are--
you know, I think we get used to the either/ors.
    Many of the students who come to us as a community college 
already have 4-year degrees. So they are looking to get 
specific skill sets on top of their 4-year degrees that allow 
them to enter into the workplace. So one of the things that is 
incumbent on educators is to make sure that we can structure 
our programs such that students can gain skills through things 
like apprenticeship, but make sure that they stack, if you 
will, or become a part of a program so that they can keep 
moving forward. I think that is very important in how we think 
about our educational curriculum structures.
    Mr. Smucker. Very much agree. Thank you.
    Mr. Ratcliffe. I thank the gentleman. The Chair now 
recognizes the gentlelady from North Carolina, Ms. Adams, for 5 
minutes.
    Ms. Adams. Thank you, Mr. Chairman. I want to thank the 
Chairs and the Ranking Members of both subcommittees for coming 
together to convene this hearing today. Thank you for your 
testimony, gentlemen.
    Dr. Ralls, in your testimony, you mentioned the great work 
of NOVA to fill the shortage of talent in the cybersecurity 
work force. You mentioned efforts to reach into underserved and 
untapped populations, speaking specifically of your campaign to 
encourage women, to explore careers. So have you explored ways 
to accomplish the same success with minority candidates?
    Mr. Ralls. Well, I may sound like I am repeating myself, 
but I do think Year Up is a key factor for us in that regard. 
So if you look at the Year Up student population, it is 
primarily minority. So students from--as we refer to as 
opportunity youth through Year Up, and so I think that is a key 
strategy for us, because it is particularly focused on IT 
careers, also finance careers, and so that is an example.
    For us, NOVA is a majority-minority institution. Diversity 
is kind-of in our core, it is in our being. So the chances are 
for most of our students, they are going to be from minority 
backgrounds. Where we have struggled is not having--is not so 
much around minority students coming through our programs, but 
in terms of female students. So that is why we have this year 
very deliberate outreach strategies with respect to female 
students.
    But certainly I think our Year Up partnership is a key in 
terms of our reaching more minority students both male and 
female. For us at NOVA, that is a natural for us in terms of 
who we are.
    Ms. Adams. OK, you say that NOVA has nine university 
partners where students can complete their degrees. Do you have 
any figures on how many of your graduates have transitioned to 
minority-serving institutions?
    Mr. Ralls. I would have to get those to you in terms of 
HBCUs. I can't tell you specifically right now. I do know we 
are working right now on a partnership among universities and 
community colleges, actually with our veterans population, and 
one of the partners is Norfolk State, who has been a close 
partner in terms of working with one of our largest partners, 
which is George Mason University. So there is a collaborative 
of which Norfolk State is involved in that regard. So we 
certainly have had many students that have gone to HBCU 
programs. There are some cyber programs out there, as well, 
that would allow them to move forward with HBCUs.
    Ms. Adams. Thank you. One of the ways to, I think, fix the 
lack of diversity in this industry is to encourage women and 
minorities to become entrepreneurs. Does NOVA have any special 
programs that encourage entrepreneurship?
    Mr. Ralls. Yes, we do. In fact, at our Alexandria campus, 
we have a very unique program that is really--I have to give 
credit to our students and some really unique faculty there. 
They call themselves the Start Up Club. They actually--they are 
technology tinkerers. They meet with faculty in a small, 
little--I think it was probably a closet at one time, but they 
have multiple different tools there that they use. Last year, 
we sent them off to Cornell, and they came home with a second 
place cybersecurity competition award.
    So we don't have as many resources around entrepreneurship, 
so we are partnering very closely right now with George Mason 
University around all aspects of tight connections. One of the 
areas that we are working and talking with them about is how we 
tap into their entrepreneurship programs.
    One of the things that we don't always have to do is 
recreate the wheel when we can look for valuable partners. I do 
think our--and our university partners provide us a lot of 
opportunity to partner, to bring opportunities to community 
college students that they typically don't naturally have that 
you would find in terms of entrepreneurship programs that you 
see at universities.
    Ms. Adams. Thank you. Quickly, Mr. Jarvis, do you have any 
figures on how successful your efforts have been in retaining 
female talent and how many women cybersecurity professionals at 
IBM remain after 3 years on the job?
    Mr. Jarvis. Sure. I don't have the demographics in front of 
me at the moment. But, I mean, what I can do say is, you know, 
we do push very hard. In fact, the last three chief information 
security officers at IBM have been women. I think what is 
important is they provide being role models and mentors. We 
also have a very strong support network or professional 
organization within the company called Women and Security 
Excelling. That is a professional development and support 
organization for women in our cybersecurity group, providing 
role models, and they do host those cyber day for girls 
programs, as well.
    So I think being able to have those professional support 
mechanisms, once we get the talent, helps us retain the talent.
    Ms. Adams. Thank you very much. I am out of time. Mr. 
Chair, I yield back.
    Mr. Ratcliffe. Thank the gentlelady. Chair now recognizes 
my friend, the gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. It is great to be with 
you today. I am very interested in this education process. In 
fact, in my 12th Congressional District of Georgia, we have--
are moving the U.S. Army Cyber Command. It is moving to Fort 
Gordon, and it has been a big--a lot of noise as far as my home 
town in the district, which is going to create about 12,000 
cyber jobs in that district.
    Our area has come together to embrace this opportunity. 
Public-private solutions have been critical to the success of 
the Army Cyber Command's relocation, and I am proud of my 
community coming together to forge a path for success. I would 
highlight two examples. Augusta University created a cyber 
institute to educate a local cyber work force, and our Governor 
Deal has just committed $50 million for a Georgia cyber 
innovation and training center dedicated to public-private 
partnerships and a cyber work force.
    We also have the technical tinkerers club, and I have a 
robot on my desk that some elementary school children coded and 
built, and they didn't even know they did it. If you would have 
asked them to code them, they probably would have said--or if 
you were to ask a middle-schooler or a high-schooler, you know, 
we need you to code this, they would say, well, I can't do 
that. But these young people really embrace this.
    To the extent that what I found in serving on the Education 
and Workforce Committee, one is there is a huge disconnect 
between the business community and the education community. 
Second is that, for example, in Dublin, Georgia, we have an 
inner city school system that went to two charter elementary 
schools. One is on leadership. It is teaching Stephen Covey's 
seven habits. The other one is a STEM school. We now have a 96 
percent graduation rate in an inner city school system. This 
career direction idea is extremely important.
    We also note, if you are not reading at a third-grade level 
when you get to the fourth grade, you are likely you are not 
going to graduate. For some reason, when they get to middle 
school, we lose them. I mean, middle school the teachers say is 
just a real issue here with keeping focus on education.
    So with those challenges, you know, we are talking about 
college, we are talking about high school. I am not sure we 
don't need to go back to the elementary school and really try 
to help these young people understand exactly why they are 
getting an education. Because I asked them what their dreams 
are every time I go. They have great dreams. They just don't 
know what they are doing there.
    So I would just like to go down the entire panel there and 
just get your ideas on--do we need to kind-of get thinking out 
of the box here and figure out what in the heck is wrong? 
Because the United States is not where we need to be as far as 
education. We are losing a lot of young people. They are not 
focused. They don't know where they want to go.
    So, Mr. Cambone.
    Mr. Cambone. Yes, sir. Well, I am happy to say that I was 
just in Augusta not 10 days ago----
    Mr. Allen. It is exciting, isn't it?
    Mr. Cambone [continuing]. Talking with Dr. Sexton. She has 
got a terrific crew of people there. We are hoping we are going 
to partner with them moving forward. So I wanted to let you 
know that.
    Second, on the education, I couldn't agree with you more. 
My wife is a grade school teacher of now nigh on to 40 years. 
She would give you one answer: Read. They have to be read to at 
home.
    Mr. Allen. Yes, we have mentors, a program now, mentor 
program where we have mentors go into the schools and read what 
these kids are interested in. It is amazing, a light bulb just 
goes off. Mr. Rapp.
    Mr. Rapp. I would like to say, too, then that I am a 
graduate of Fort Gordon. I spent 34 years in the Army, the last 
3 in Army Cyber, and our CPT right now is on mission.
    Mr. Allen. Thank you for your service.
    Mr. Rapp. Absolutely. I would have to agree with reading. I 
think the other thing is teaching good cyber hygiene habits 
early, so teaching children safety and how to utilize 
technology.
    Mr. Allen. Mr. Jarvis.
    Mr. Jarvis. Yes, I definitely think--mentors that can 
provide some positive relatable examples I think are extremely 
important. Instilling digital literacy at an early age I think 
is just going to help in the long run. Just as kind-of an aside 
for the mentorship program, in one of the P-TECH schools that 
we sponsor in Baltimore, right, there are so many interested 
IBM'ers in helping mentor these kids that a lot of them have 
two mentors, which is great, I mean, because they can ask them 
questions and things like that, so I think that is essential.
    Mr. Allen. That is important for the business community. I 
am out of time. Mr. Ralls, you can comment on that on the next 
question. But I will tell you that there are two college 
dropouts that made a big difference in this world, Bill Gates 
and Steve Jobs. So with that, thank you for being here today.
    Mr. Ratcliffe. Thank the gentleman. Chair now recognizes 
the gentleman from California, Mr. Takano, for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman. I am glad to be here 
this afternoon to engage in this timely discussion on how to 
address the growing need for a strong and diverse cybersecurity 
work force. As the Vice Ranking Member of the House Veterans 
Affairs Committee and as a Member of its subcommittee on the 
economic opportunity, I understand the importance of providing 
the resources needed to allow our talented and skilled veterans 
to pursue cybersecurity opportunities after their service.
    My first question is for Mr. Ralls. Mr. Ralls, you pointed 
to NOVA's efforts to support veterans in pursuit of a 
cybersecurity career. In particular, you mentioned a 
partnership with the United States Marines and Marine Corps 
University to provide surge educational opportunities. Can you 
share a bit more about the partnership surge educational 
opportunities?
    Mr. Ralls. Yes, sir. What surge refers to is essentially 
our--collectively with the Marine Corps University and the 
Marine Corps--is to be nimble in how we provide concentrated 
instruction at times when military members are available and 
can be scheduled to receive that. So, for instance, short-week 
classes--or multi-week classes that are shorter than an average 
semester or even mini-semester. Same number of hours, but in a 
very concentrated way, so being able to do that.
    Then also being able to, first, recognize military 
occupational specialties, so there is about 10 MOSs within the 
Marines that will lead between to 3 to 23 credit hours in terms 
of credit that can be received, depending on what that previous 
technical background is, making our programs flexible through 
distance education and other opportunities, as I mentioned, and 
then making sure they ladder so that Marines can complete our 
programs.
    That is one of the reasons our State government and general 
assembly worked with us to--or led efforts to reduce tuition, 
so when Marines leave--may be deployed or go to other places, 
they don't have to pay out-of-State tuition.
    A couple other things, too. One thing that we are working 
toward, boot camps--and I know boot camps have been mentioned--
programming skills are key to cyber. We created a special boot 
camp just for veterans. It is a different model. We are still 
struggling and working our way through it, but to make it free 
of charge to veterans, that is a concentrated, almost 50- to 
60-hour-week boot camp. So we are looking at different models 
because military members when they are in, they have periods of 
time for education. We have got to make that work. When they 
are out, they need to get into employment very quickly and to 
certain roles.
    Mr. Takano. I note that you have active-duty service 
members in your program. Does tuition assistance from the 
Department of Defense help pay for their education?
    Mr. Ralls. Absolutely, absolutely. Partly we want to make 
sure, too, when students leave and they may be classified as 
out-of-State, that was an effort to----
    Mr. Takano. Has there been thought about how you coordinate 
the--well, counsel these service members on using their tuition 
assistance in combination with their G.I. Bill, how they can 
strategize to use that to their best benefit? My thought is 
that many service members, if they--once they leave the 
service, if they have already acquired a great deal of 
expertise and credit hours, they can try to bank their G.I. 
Bill and use it for a graduate degree. I mean, that kind of 
thinking, that kind of strategizing.
    Do you--how do you identify your--the Marines, for example, 
that can go to your program? Do you self-identify? Do you 
market to----
    Mr. Ralls. You are talking about in terms of active-duty 
Marines?
    Mr. Takano. Yes.
    Mr. Ralls. Primarily through our relationships with 
Quantico. So, you know, the relationship--on base, we have 
people stationed in base, but we also have such a strong 
relationship with Marine Corps University and others that this 
partnered--so those Marines who are there are aware of our 
programs. We are working to scale those programs with Marine 
Corps University beyond just cyber and other opportunities, as 
well.
    Mr. Takano. This is really interesting to me, because we 
have a huge problem with the TAPS program being considered 
inadequate. As a teacher, former teacher, I have always thought 
that to be really, really--I don't know, not accurate, but to 
be true to the G.I. Bill, the promise of the G.I. Bill, what we 
use to pull people into the service, that we should assess the 
students on Day 1, set educational goals for them while they 
are in the service, encourage them to use tuition assistance to 
bring their skills up or, in this case, they are actually 
acquiring a major set of skills. Then the separation wouldn't 
be so traumatic or aimless or people--there is a much more 
seamless transition to civilian life.
    Mr. Ralls. Yes. I would say, too, the partnership with--I 
have to give a lot of credit to our Marine partners. The 
Marines are very focused now, the commandant and others, in 
terms of the--making sure that all Marines have a credential, 
have a degree. So I think community colleges and these 
partnerships are key in that regard.
    Mr. Takano. So my time is up. I want to explore--I hope we 
can get your information. I want to have our committee on the 
veterans side explore more about what you are doing. Thanks. I 
yield back, sir.
    Mr. Ratcliffe. Thank the gentleman. The Chair now 
recognizes the gentlelady from Delaware, Ms. Blunt Rochester, 
for 5 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. I want to 
thank the panel. Mr. Rapp, when you first talked about your 
son, that was really an interesting moment for me, because I 
sat here thinking about the fact that the battery on my phone 
is about to die, and I feel so vulnerable. I thought about the 
vulnerability of us as individuals with autonomous vehicles, 
internet of things, machine learning, artificial intelligence, 
blockchain, cloud computing, biotech.
    I started running through all of these things that I had 
not thought about years back that are now before us. As a 
Nation, as businesspeople, as individuals, this conversation is 
vital. I have two perspectives to bring. One, I served as a 
State personnel director in the State of Delaware, and we had a 
shortage of IT professionals. One of the things that we had to 
look at is, what attracts them to the job and, also, how to 
retain them.
    So one of my questions is really about, is there any 
research to suggest what would attract people to the field? 
That is the first question. Then the second is really around--
because I met at NSA a young guy who came from a great school, 
and it wasn't the things that I would think would attract 
somebody to the job. It was something as simple as parking. 
Like, there were things that, you know, NSA needs parking.
    But I am just curious, is there any research on what 
attracts people to the job? Also, the marketing aspect. Is 
there any marketing that is happening? Because some of these 
fields are things we never even heard about before, so a parent 
is not saying go be a cyber technician. They are saying go be 
an engineer or a doctor or a lawyer. Anybody, any advice on 
those?
    Mr. Rapp. You know, I think, first of all, we have to break 
down some barriers. When we look at the romanticized version of 
working in the Valley, it seems very attractive until you get 
out there and you are sharing an 1,100-square-foot apartment 
with four other people.
    But, you know, we also have to embrace change. As 
governments look toward attracting that type of talent, you 
know, there is some hard work that has to be done. You know, 
simple things like the scholarship for service, expanding that 
to State and local governments, you know, because we are as 
vulnerable from those aspects as we are from the Federal 
Government, because we all work together and our systems all 
interact. So we have got to get out of these verticals that we 
put ourselves in.
    The other thing is, is we have to look at--you know, great 
example of a soldier who was trained by the United States Army, 
went to the CPT in Indiana, left the State of Indiana to go do 
this training, came back with more certifications than I can 
possibly remember, and then went back to the Government, and 
they told him that they couldn't hire him back in because he 
had come in at a much higher level and there was a rule that he 
couldn't make more money coming back in--that much more money 
coming back in.
    We look at GS levels and things like that and the 
qualifications for jobs, those things were written decades ago 
and they need to be updated. So if you want to attract people 
to it, you have to speak a common language and a more modern 
language. Those are just a few observations there.
    Security clearances, you know, higher education produces a 
lot of degrees, and it is--you know, it is lucrative to attract 
out-of-State, out-of-country tuition. So we are training people 
and sending them back to our competition. You know, and we in 
CLA like to work with the community colleges because they are 
more likely to have U.S. citizens. So when they go to find--go 
to get security clearances, if they can get one in a year or 18 
months, then they have a better chance at doing that. Much of 
the work that is done in cybersecurity in the State of Indiana 
is defense-oriented.
    Ms. Blunt Rochester. I have, like, less than a minute left. 
It is not your fault, mine. But, Dr. Cambone and Dr. Ralls, 
maybe afterwards, I was just curious about your relationships 
with the work force development systems. To me, I was around 
for WIA and WIOA, and I am just curious if the relationships 
have been good, strong, better, worse?
    Mr. Ralls. Our apprenticeship opportunity started with our 
work force board. Our chair of our college is also chair of our 
regional work force board, so we have a very unique synergy.
    Ms. Blunt Rochester. Excellent.
    Mr. Cambone. Yes, ma'am. It is very strong. We have got two 
agencies, actually, who spend a lot of time doing work force 
development across the entire spectrum. So the answer is yes.
    Ms. Blunt Rochester. Got you. Then my last quick question, 
which we don't have time for, but I was just curious if 
background checks and security clearances limit the folks that 
are entering the field, and if that is a challenge, 
particularly with a lot of things that people are into these 
days, like marijuana?
    Mr. Cambone. If I may, Mr. Chairman--yes.
    [Laughter.]
    Mr. Cambone. I had some experience with this back in my 
earlier career. The answer is two-fold. In certain respects, it 
has gotten less--your life is less a prohibition to your being 
granted a clearance, provided that you are straightforward in 
your testimony, if you will, in the forms that you fill out. If 
you live abroad, it is a little more complicated. But that has 
gotten a little easier.
    The difficulty is we have a massive backlog. Getting the 
clearance is oftentimes the barrier to being able to do certain 
kinds of work. So we really do need to go back and rethink why 
we classify things the way we do and then how do we put the 
clearance process in place to match the kind of work that needs 
to be done. So not everything is Top Secret. So not everybody 
needs a Top-Secret clearance.
    Ms. Blunt Rochester. Thank you.
    Mr. Cambone. So can we start to vary these things over 
time? That is a tough one, but one we got to tackle.
    Ms. Blunt Rochester. Thank you. My time is expired.
    Mr. Ratcliffe. I thank the gentlelady. The Chair now 
recognizes the gentlelady from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. I would like to thank the Chairman and the 
Ranking Member and the collaborators on the House Committee on 
Education for a very important collaboration, if you will, on a 
very important issue.
    I want to take a moment of personal privilege to 
acknowledge Dr. Stephen Cambone for his representing a Texas 
institution, Texas A&M, and as well to thank him for hosting 
the Hurricane Harvey event in collaboration with the George 
H.W. Bush Library and to historically host five of our living 
presidents. So it was a monumental and much-needed event for 
all of the people that are suffering, and it is well-known in 
my community that we are still in dire straits and are in 
certainly need of restoration and resources to do so.
    I was speaking to some people in the power industry, and 
they were trying to explain the Achilles' heels in Puerto Rico 
in particular, and certainly I think the same kind of Achilles' 
heel would be present in the U.S. Virgin Islands. One of the 
issues, of course, is the lack of power and the long journey of 
having that power back on.
    I connect it to the extent of what we are trying to do here 
is--our committee, that is in collaboration is the 
cybersecurity and infrastructure. We certainly need the talent 
that can relate to those aspects of our Governmental 
responsibilities and private-sector responsibilities, and we 
need the personnel to be able to do so. So I may have just two 
questions, and I will frame it in that way.
    Puerto Rico needs not only people who know how to work with 
hardware, engineers, and those who work with the Army Corps of 
Engineers, but we need ideas, we need to understand how we can 
protect the infrastructure or the cyber infrastructure that 
also is a victim of Hurricane Maria and Hurricane Irma, as 
well.
    So as you answer the question, I think I would like to hear 
you talk about the pervasiveness, the wide breadth and depth of 
cyber, and the need for human resources in that area to be 
creative in so many of the obstacles that we may face, whether 
it is man-made or, God forbid, man-made, we hope not, but 
natural disasters that we are facing and seemingly are going to 
face for a long period of time. We have not yet been able to 
assess what the fires in California in terms of infrastructure, 
cyber will do.
    The second part of my question is--and I serve as the 
Ranking Member on the crime terrorism and Homeland Security 
Committee, and when we are really at our best in Judiciary, we 
are working on ways to prevent crime, to intervene in that, and 
to find alternatives for those individuals whose lives are 
somewhat ruined for a good period of their life, if they are 
not rehabilitated. We find in these incarcerated State and 
Federal prisons very bright people.
    So I would like you to comment on that broad expanse of how 
this idea of the work force and building the work force and 
finding people to be in the work force, whether it is DACA 
young people or otherwise, is crucial to the future of this 
Nation. I commend for your reading H.R. 935, which is a bill 
that I introduced that I am trying to hopefully draw the 
attention of the Ranking and the Chairperson of all of the 
committees involved here, cybersecurity education and the 
Workforce Enhancement Act to prepare in particular minority 
students and professionals for the jobs of this century.
    It goes on to talk about recruiting, providing grants for 
training programs, supporting guest lecturer programs. We are 
using Department of Homeland Security cyber personnel to go out 
and really get their hands around this issue. So if you would, 
all of the witnesses, Dr. Cambone--is it ``Camboney'' or 
``Cambone''?
    Mr. Cambone. ``Cambone.''
    Ms. Jackson Lee. Pardon me?
    Mr. Cambone. ``Cambone.''
    Ms. Jackson Lee. Cambone. Dr. Rapp, Mr. Rapp, Mr. Jarvis, 
and Mr. Ralls, if you could comment on those points, broad 
points.
    Mr. Cambone. Well, thank you, ma'am. I will convey to the 
chancellor your compliments. As you know, he been assigned the 
responsibility by the Governor to lead the recovery efforts in 
the State. He has done that in coordination with industry, with 
the other universities, and brought to bear, because I see them 
every day, the two institutions I have made mention of, both 
TEES and TEEX. So there is a ready-made force there that we 
were able to bring to bear. We need to be able to replicate 
that around the country.
    Ms. Jackson Lee. Just each one go down and answer the 
question.
    Mr. Rapp. I believe that, you know, as we address 
cybersecurity and infrastructure that we need to take a look at 
private partnerships, public-private partnerships like the 
Battery Innovation Center, working on stored energy and 
microgrids, so that when we see a natural disaster that takes 
place or we have a natural disaster, something that takes 
place, then the grid is not only protected, but segmented and 
able to come up quicker.
    So my point to that is, there is existing technology and 
partnerships that are working on those types of things out 
there right now that certainly can be leveraged.
    To your other point, I absolutely agree and some of the 
discussions that we have had in the cyber leadership 
allowances, how do we reach people who have--are part of the 
criminal--have been indoctrinated in the criminal justice 
system that have valuable skills that they can be re-educated 
and apply themselves to? I think a lot of that can come from 
great programs into--that are interjected to our places where 
people are incarcerated.
    Ms. Jackson Lee. Thank you.
    Mr. Jarvis. Yes, I don't have anything else to add.
    Mr. Ralls. I would add, we have been batting around 
numbers, statistics related to the already huge gap that we 
have in terms of demand, supply, in terms of workers, but that 
has primarily been traditional cybersecurity. When you are 
talking about infrastructure, I think it brings to mind--or 
something I indicated a little earlier, but I think we are 
going to see a great acceleration of one of the largest skill 
gaps, talent gaps, work force gaps we have right now is in 
terms of the role of maintenance technicians.
    Already, industries and facilities, buildings are already 
struggling in those regards, but I think what's happening with 
connection and networking devices and facilities and--where 
your refrigerator is connected, your HVAC system, your PLCs, 
technicians' roles I think are going to be even more important. 
So that is why I think also programs like mission-critical 
operations certifications that were started within community 
colleges in North Carolina, opportunities to really look at 
these areas of critical infrastructure, which will provide a 
lot of job opportunities for folks who wouldn't traditionally 
see themselves in the traditional IT cyber role, and to meet 
those needs, I think we are going to have to have the 
educational resources, but also the breadth to be able to open 
up the resources to as many talented people as we can possibly 
find. I think the demands are going to be huge and accelerating 
because of that.
    Ms. Jackson Lee. Thank you very much. Thank you, Mr. 
Chairman. Thank you, Ranking Member. I yield back.
    Mr. Ratcliffe. Thank the gentlelady. The Chair now 
recognizes the gentleman from Virginia, Mr. Garrett, for 5 
minutes.
    Mr. Garrett. Thank you, Mr. Chairman. Thanks to the members 
of the panel. Thanks to my colleague from Texas for going a 
little bit over, because that let me get my thoughts together. 
I appreciate it.
    It is great to have you all in front of us. Actually, I was 
out of the room speaking ironically enough with the commander 
of TRADOC, Training and Doctrine for the military, and 
specifically about cyber and the threat they are in. So while I 
am honored to serve on both the Education and Workforce 
Committee and the Homeland Security Committee, I am going to 
come at it from a homeland perspective here in my time.
    The paradigm that we face as a Nation has changed in a 
manner more dramatic than any that I can think of in history as 
it relates to the threat that we face as a Nation. The reason I 
say that is, throughout history, whether we are mounted cavalry 
or dreadnaughts or fighter aircraft or nuclear submarines, we 
could quantify a threat based on a number of platforms, 
instruments by which an entity might threaten another, and 
usually then assess the existential nature of the threat or the 
lack thereof. We can't anymore.
    The reason, obviously, is that one individual with the 
proper training, located remotely, perhaps in their basement, 
and that might be in Tehran and it might be in Portland, can 
wreak havoc uncontemplatable perhaps in human history by virtue 
of the interconnectivity of everything.
    We have seen in the Baltic States, as well as in the 
Ukraine, the impacts of real aggressive cyber attacks. So as we 
discussed public-private partnerships to prepare our young 
people for opportunities moving forward, I think it is 
important to also understand the Government role in this 
endeavor because of the fact that the threat of the 21st 
Century really will manifest itself, I think, at a keyboard and 
not in the cockpit of an aircraft or the driver's cupola of a 
main battle tank.
    So it is particularly, No. 1, Dr. Ralls, I think we might 
have bumped into one another when I was back in the Virginia 
General Assembly, so great to see you here. Thanks for the good 
work you do at Northern Virginia Community College. A little 
bit biased. Even if you are from Texas A&M, you are awesome, 
but we have wonderful community colleges in Virginia, where we 
try to tailor the training that you all give to the employers 
in the area and the futures of the young people.
    But IBM, DEFCON, what DEFCON does is really the private 
version of what I think we need to do better as a Nation, and 
that is sort of a constant, perpetual threat and updating of 
black-and-white lists, et cetera. But the problem is this. When 
your pay scale is a Government pay scale and the marketplace 
drives talent based on the ability to receive a financial 
reward, then we can be assured that the great cyber minds might 
be working at Deutsche Bank or Honda International, that they 
might be working at IBM or at DEFCON, but it is hard to 
envision them in the wonderful Army green that I wore for 6 
years, by virtue of the fact that $55,000 a year doesn't drive 
the best talent.
    So how do we engage young people, (A), to enter this growth 
industry, and then, (B), how do we--understanding market 
forces--specifically the payment that you receive for being 
amongst the elite in your skill set, capitalize on the 
investment in training these young people to protect this 
country? That is a riddle that I haven't solved yet.
    One thing that we have done is try to collocate cyber units 
in the military near, you know, technology hubs, you know, 
Seattle, we might have a cyber unit. Northern Virginia, we have 
National Guard units that are cyber, so that we might have 
somebody who works for a wonderful corporation that does IT and 
then gets a pittance 1 weekend a month to come do that. But I 
would invite specifically Mr. Rapp and Mr. Jarvis to speak to 
how we integrate the educational opportunities to the National 
defense needs that I think we have been slow to identify and 
certainly don't want to identify too late.
    Mr. Rapp. I didn't know if it was appropriate to raise my 
hand and say ``pick me, pick me,'' but I----
    Mr. Garrett. That is--I already picked you.
    Mr. Rapp. That is awesome.
    Mr. Garrett. I was in another room watching you. ``This 
guy.''
    Mr. Rapp. So I live that story. You know, some of the 
recommendations we made early on to get cyber integrated into 
the military, first of all, the United States Army--or, I am 
sorry, the military needs to look at direct commissions, so for 
skilled professionals. We do the same with doctors. We do it 
with lawyers. Why wouldn't we do it with cyber professionals?
    The second thing is, is we have increased physical fitness 
standards for special operations groups. Well, why would we 
expect cybersecurity professionals to have--why do we not have 
a physical fitness tests that takes into account the MOSs or 
the job skills that each one of those soldiers have? We have 
long since judged people across the board on a single standard. 
That is just not the reality that we live in today.
    There is no shortage of patriotic cybersecurity people out 
there. But age limitations, the commitments of joining the 
military, those things all become barriers to entry for 
cybersecurity professionals. The National Guard is a great way 
to leverage patriotic Americans that do things on the day and 
then can bring those skills on the weekends. So I would say 
those are some ways that we can do it.
    I don't think there is a shortage of attracting people to 
those jobs. I think it is a barrier to entry. I----
    Mr. Garrett. So I am over, but I would beg the Chairman's 
indulgence. So essentially an MOS waiver program to recruit the 
best and brightest in specialized fields?
    Mr. Rapp. I absolutely think that we should. I will give 
you another personal story. My son was disqualified from 
military intelligence service because he was colorblind. So now 
he is studying cybersecurity and psychology on the civilian 
side, and he will be hired back by the U.S. Government as a 
contractor, I am sure.
    Mr. Garrett. Thank you, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman.
    Mr. Garrett. I apologize to Mr. Jarvis, but I would 
welcome, if you want to reach out to our office, I would 
welcome to hear your thoughts.
    Mr. Ratcliffe. Thank the gentleman. Chair now recognizes 
the gentleman from Illinois, Mr. Krishnamoorthi, for 5 minutes 
for questions.
    Mr. Krishnamoorthi. Thank you, Chairman Guthrie, Chairman 
Ratcliffe, Ranking Member Davis, and Ranking Member Richmond, 
for calling this very important joint subcommittee hearing. 
Thank you to all the witnesses for coming in today. I really 
enjoyed your testimony.
    I think it is fair to say nowhere is the skills gap or the 
work force skills gap more evident than in cybersecurity. A 
recent report by Forbes and the University of Pennsylvania 
estimates that there are 1.4 million unfilled jobs in this 
field alone. That is why work force development organizations, 
community colleges, and CTE program administrators need to work 
together to strengthen our cybersecurity work force pipeline. 
Americans' safety and economic prosperity depend on it.
    I have a few questions. Dr. Ralls, I was very interested to 
learn that you have successfully expanded your cybersecurity 
associate's degree program from 50 to 1,500 people in just 4 
years. Could you explain the effect this has had on your 
school's financial standing?
    Mr. Ralls. Well, it explains where we are putting many 
resources. What we have to do in an age of zero sum is, as 
resources become available, particularly instructional 
resources but also facilities, so, you know, we have just 
purchased a new facility in Manassas. We are renovating a 
facility in Alexandria. We have a new tech center in Reston. So 
certainly it is a prioritization of resources, because that is 
where the work force needs are and because we are not growing 
overall, even though our cyber program is growing. That means 
shifting resources. So that is a challenge.
    Obviously for us, tapping into the rich pool of adjuncts is 
important. I have to applaud the NSA for helping us with that. 
Last year, we had 18 faculty members who were able to receive 
education in certified ethical hacking to gain the 
certification. They already had the skills, but they need the 
certification so they can teach people how to get the 
certification as part of the program.
    So those programs that support those efforts are key. Just 
yesterday, representatives of colleges around the country were 
meeting with NSA and brainstorming ideas. One of the ideas was 
about a virtual job fair, really tapping into recent PhDs and 
others coming out of programs and trying to draw them into 
programs like ours.
    So I think there are programs out there, certainly NSF 
Cyber Watch, NSA-CAE programs that are helping colleges like 
ours, and particularly even not so much colleges like ours, but 
others that are just getting into the cybersecurity game that 
are important, but as I mentioned before, those efforts have to 
scale just as we are having to scale to go from the number of 
students we are providing.
    Mr. Krishnamoorthi. Do you find the funding that you 
receive at NOVA at the Federal, State, and local level 
sufficient to meet the demand in the classroom?
    Mr. Ralls. Oh, absolutely not. I mean, that is----
    Mr. Krishnamoorthi. How much does it need to go up?
    Mr. Ralls. Well, I can't tell you. I mean, obviously the--
well, I should be able to tell you. But, for instance, just 
think in terms of our cyber program. So we have 1,500 program-
placed students, but we are an open-door admissions. So we 
don't really say to students, ``You can't come into our 
program.'' It is just that they will run into challenges as we 
run into challenges in providing their needs.
    So that is an ultimate challenge for us. But I will just 
give you an example. This year, I mentioned, you know, our 
Perkins funding. We are the 14th-largest college or university 
in the country. We have a $270 million annual budget, and our 
Perkins funding that we get for our college this year is 
$417,000. You know, that is why we are putting all of it, you 
know, down on--just recruiting women students, female students 
through IT, because it is--I truly believe this, that I think 
technical education is one of the biggest gaps between rhetoric 
and investment across multiple areas is technical education. We 
have to get more serious about it.
    Mr. Krishnamoorthi. Well, thank you for bringing that up. I 
am the Democratic lead, along with Republican Glenn Thompson, 
on the renewal of the Perkins career technical education 
program that unanimously passed through the House. We are 
hoping that it passes the Senate. It does provide for more 
funding. We would ask you to urge your Senators to take this 
up.
    The CyberCorps Scholarship for Service Program at the 
Federal level today only provides stipends to students at 4-
year colleges and universities. How can Congress expand current 
programs to ensure that community college students have access 
to these critical funds? Dr. Ralls, do you want to comment on 
that?
    Mr. Ralls. Well, there is the--I think it was introduced in 
the Senate, a bipartisan legislation, the 2017 Cyber 
Scholarship Act, which actually would expand those efforts to 
include community college students. So that is a very specific 
thing that is out there right now.
    We have been able to get some students in the programs 
through our partnerships with like Marymount University and 
others who have reached with us, so there are some doors that 
you can go through, through articulation. But it needs to be 
expanded to include certainly community college students, and 
that particular legislation does that or proposal does that.
    Mr. Krishnamoorthi. Last question. I know I am out of time. 
But I did want to ask this. Are there any other countries that 
do a good job of training their cybersecurity work force or, 
you know, adequately providing for a cybersecurity work force 
in their countries? We can take answers from any of you.
    Mr. Rapp. I would say a leader in that area would be 
Israel, and that is through a close cooperation between the 
educational universities, the educational institutions, private 
industry, and the military. So they have less barriers between 
those three sectors, and they have very successfully been able 
to produce the work force to bat about 35 times above their 
weight, second only to the United States in cybersecurity 
product exports.
    Mr. Krishnamoorthi. Any others?
    Mr. Jarvis. I wouldn't say that maybe some examples of 
people that are doing a good job, but I think we can look to 
other countries for examples of how they are trying to address 
their own cyber skills gap, because they do have them. Whether 
it is in the United Kingdom, where they are setting up a 
National college for cybersecurity in Bletchley Park, or if it 
is looking at Singapore, where they are trying to take a look 
at various vocational models to help bolster their 
cybersecurity work force. I think we can look to some examples 
in other countries to help augment what we are trying to do 
here.
    Mr. Krishnamoorthi. Thank you. Thank you.
    Mr. Ratcliffe. Thank the gentleman. I thank all of the 
witnesses for your insightful and valuable testimony and 
answers today. I thank the Members for some very thoughtful 
questions. It is possible that some Members may have additional 
questions for our witnesses, and if so, we will ask you to 
respond to those in writing. Pursuant to committee rule VII(D), 
the hearing record will remain open for a period of 10 days. 
Without objection, the subcommittees stand adjourned.
    [Whereupon, at 4:21 p.m., the subcommittees were 
adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Chairman John Ratcliffe for Stephen A. Cambone
    Question 1a. Given the mission of Texas A&M University System's 
land grant mandate including its combination of academic instruction, 
education in emerging technologies, and the engineering extension, how 
is A&M working to address needs in the public and private sectors?
    What strategies is A&M utilizing to implement those approaches?
    Answer. The mission of The Texas A&M University System is to 
provide education, conduct research, commercialize technology, offer 
training, and deliver services for the people of Texas and beyond 
through its universities and State agencies. Since its establishment as 
a land-grant through the Morrill Act, Texas A&M has fulfilled the 
legislation's time-honored tradition by conducting high-impact research 
at all levels and bringing forth practical research applications to 
citizens in Texas and the Nation.
    The original principles set forth in the Morrill Act were to teach 
agriculture, military tactics, and the mechanical arts as well as 
classical studies so that members of the working classes could obtain a 
practical education. As technology has advanced and infused into almost 
every part of our lives, this mission has evolved to include fields 
such as engineering, public safety, infrastructure and technology. 
Cybersecurity is a common thread through these areas and demands to be 
addressed in the public and private sectors in order to support growth 
and protect systems.
    Increasing the resilience of cyber systems found in both the public 
and private sectors will require a more skillful work force, ground-
breaking new capabilities, and innovative policies. Fortuitously, and 
consistent with its land grant mandate, the Texas A&M University System 
has undertaken a series of broad-ranging cybersecurity initiatives 
that, in combination, address all three areas.
Workforce Development
    On the educational front of work force development, A&M System 
faculty and staff are actively engaged in the development of high-
impact education and training opportunities for our students. The 
overarching goal of these efforts is to ensure that the graduates of 
our programs are properly equipped to address the many ever-evolving 
cybersecurity challenges they face in their professional lives.
    In recent years A&M faculty and staff have developed a wide array 
of cybersecurity courses and broader cybersecurity curriculum 
offerings. For instance, over the past 3 years the number of graduate 
and undergraduate cybersecurity courses offered at the System's 
flagship institution in College Station has more than doubled from 17 
to 35. Additionally, the University's new Cybersecurity minor field of 
study, first introduced in February 2016, has already attracted nearly 
350 students from across the University. It has already become the 
highest enrollment minor in College of Engineering. This spring, A&M 
will enroll its initial cohort of students in a first-of-its-kind 
Master's Degree program that will further the education of 
undergraduate engineering students with an advanced degree in 
cybersecurity expertise that they will use to design and build a more 
secure next generation of smart, interconnected systems.
    Early this year, personnel affiliated with the Texas A&M 
Cybersecurity Center provided cybersecurity instruction to A&M IT and 
security staff. This instruction was conducted on the prototype for the 
Texas A&M-based Texas Cyber Range. This range, now near completion, 
will serve as a vitalized laboratory to support hands-on educational 
and training experiences for students and employees across the A&M 
System, and beyond.
    Acknowledging that only a portion of a student's learning takes 
place in traditional classroom settings, A&M faculty have developed a 
large number of extracurricular and co-curricular activities that 
complement, reinforce, and build upon the knowledge and skills our 
students acquire in the lecture hall. No less than four student-led 
organizations, focusing on cybersecurity topics, have been formed at 
A&M in the past 2 years. Students in these organizations have not only 
learned a great deal but many participate in teams that have competed, 
with great success, in dozens of regional, National, and international 
cyber competitions. Finally, A&M faculty and staff have also worked 
closely with both public and private-sector organizations to ensure 
that our students have the opportunity to gain valuable experience 
through their participation in high-impact cybersecurity internships 
and co-ops. Our students have consistently identified these real-world 
opportunities as some of their most valuable learning experiences.
    To encourage students to pursue cybersecurity studies, Texas A&M 
University faculty has acquired grant funding for a variety of 
cybersecurity scholarship opportunities for our students. To date, 
nearly 25 students have received full or partial scholarships under 
these programs. The Texas A&M Cybersecurity Center currently has a 
proposal under review for an NSF Service-for-Scholarships grant. If 
approved, it will provide full scholarships for up to 40 students 
beginning fall 2018.
    Over the course of the next year calendar year, building on the 
above described highly successful educational initiatives, the faculty 
and staff at the College Station campus will increase their engagement 
with their counterparts the other 10 universities within the A&M 
system. The goal of these engagements will be to share course 
materials, curriculum initiatives, and other educational best 
practices.
    Texas A&M also employs two threads that cross-cut the professional 
and continuing education of (PCE) of cybersecurity work force 
development. The first includes certifications (which can also be 
referred to as badges, credentials, or programs) that are typically 
multiple courses or modules that can be completed either for continuing 
education or academic credit. Once the designated course/modules are 
satisfactorily completed (some may require third-party examinations) a 
certificate will be awarded. These programs may be accredited by States 
and/or industry associations. Regardless of any external accreditation, 
industry must have input into the content and delivery platforms in 
order for the work force development activities to contribute to 
effective implementation in the public and private sectors.
    The second thread is to ensure that all workers, from novice to the 
cybersecurity professional, possess the required level of knowledge and 
competency for their specific roles. PCE can also provide preparation 
for certification testing that entails the study of a prescribed body 
of knowledge or technical curriculum and may require to be supplemented 
by on-the-job experience. PCE is applicable to those with and without a 
degree from an institute of higher education.
    It should be noted that PCE work force development in cybersecurity 
calls for content and delivery methodologies to be developed and 
delivered based on adult learning models. These tactics require a 
different, but complementary approach when compared to traditional 
undergraduate and graduate teaching methods.
Capabilities
    On the capabilities front, A&M researchers have long engaged in a 
wide array of high-impact cybersecurity research projects. With a 
primary focus on applied research, A&M scholars have developed 
capabilities that address some of the many cyber threats that target 
both traditional IT systems, as well as those that target Cyber 
Physical Systems (including Industrial Control Systems and other 
internet of things components). A&M scholars have developed a large 
suite of tools for malware and Advanced Persistent Threat (APT) 
analysis, which have been used in hundreds of organizations around the 
world. A&M researchers have also developed innovative malicious cyber 
infrastructure (botnet) detection and analysis tools, as well as tools 
that perform Malicious Social Media analysis. These tools have also 
been used in scores of organizations, in both the public and private 
sectors.
    Notably, the level of cybersecurity research at A&M has increased 
dramatically over the past 2 years. There has been a three-fold 
increase in the average number of grants awarded to A&M faculty and an 
eight-fold increase in the average amount of research funds awarded to 
these scholars. This year alone A&M University expects to receive 
awards of no less than $11.5 million for up 8-10 research projects.
Innovative Policies
    On the policy front, a proposal, currently under review, would 
create a System-level agency, the Institute for National Security & 
Cyber Security Education & Research (INCSER). This institute will be 
comprised of the Texas A&M Cybersecurity Center, the Texas A&M Nuclear 
Security Science and Policy Institute, and a yet-to-be-named Cyber 
Policy Center, associated with the Bush School of Government and Public 
Service. In addition to facilitating ground-breaking research and 
innovative security education, training, and work force development, 
the INCSER will engage in research that will lead to the formulation of 
high-impact, forward-looking security policies for organizations in 
both the public and private sector, across the spectrum from local to 
international. This year the Bush School of Government and Public 
Service will introduce a graduate certificate in cybersecurity policy, 
as a complement to their existing certificate offerings in Advanced 
International Affairs and in Homeland Security.
    Question 1b. What metrics has A&M identified or does A&M use to 
evaluate the effectiveness of these approaches?
    Answer. The Texas A&M Engineering Experiment Station (TEES) and the 
Texas A&M Engineering Extension Service (TEEX), agencies within the 
Texas A&M University System, have robust student management systems 
that provide for registration, program completion tracking, 
distribution, and an educational records repository. This allows 
individuals and organizations to manage their work force development 
efforts as well as track overall performance metrics. It is also 
critical that work force development efforts are evaluated on several 
levels. Typically, near-term assessments of courses, modules, and/or 
programs/certifications are completed immediately following the 
activity. These assessments are useful, but additional content and 
application evaluations will inform the overall cybersecurity work 
force continuum. There are several methods of accomplishing this type 
of detailed analysis. Surveying individual participants to assess far-
term effectiveness can offer specific data about how that person 
applied the content. Additionally, the TEES EDGE (engineering's 
professional and continuing education management group) can perform 
more detailed quantitative and qualitative analyses for individual 
activities and programs as well as private and public organization 
impact. This type of analysis would contribute to the life-cycle of 
work force development including informing original market research 
along with development and deployment.
    The Texas A&M University System is uniquely positioned to provide 
work force development across the cybersecurity continuum with its 
university components and agencies. These system members have developed 
and delivered work force development through the following:
  <bullet> Undergraduate and graduate programs
  <bullet> Military and veterans
  <bullet> University and student organizations
  <bullet> Customized contracts with organizations and industry 
        associations
  <bullet> Federal and State-funded grants
  <bullet> Open-enrollment delivery
  <bullet> Local, State, National, and international deliveries.
    Additionally, systems components have worked with public and 
private-sector organizations to provide research and technical 
assistance including risk assessments. This experience informs the work 
force development continuum by contributing current knowledge in real-
time.
        Questions From Chairman John Ratcliffe for Douglas Rapp
    Question 1a. When the Cyber Leadership Alliance (CLA) approaches a 
community college to strengthen or create a cyber studies program, what 
parameters or identifiers help the Alliance pick the schools to 
approach?
    Answer. The Cyber Leadership Alliance has partnerships with 
numerous colleges. When CLA evaluates a college for partnership, there 
are several criteria that we evaluate.
      does the college understand the cybersecurity ecosystem and 
                            where they fit?
    Demand analysis.--It is important for education institutions to 
understand the demand for cybersecurity work force. This is their 
market research prior to developing a cybersecurity program. It is 
important to understand if the college is using industry studies such 
as the PWC Global State of Information Security Survey, using data from 
the National Institute of Standards in Technology (NIST), using tools 
such as CyberSeek, and other valid academic and industry data.
    Core competencies alignment.--Understanding their own core 
competencies will better determine the type and level of programming 
they should pursue. If a college is best known for culinary arts, then 
shifting to a highly technical advanced cybersecurity degree program 
may not be a good fit. Additionally, a 2-year community college may 
want to analyze whether a 2-year cybersecurity degree that teaches the 
philosophical concepts of cybersecurity is a better fit than teaching a 
2-year applied degree, certificate, or industry certifications.
    Goals and standards.--Colleges considering cybersecurity 
programming should have clearly-defined goals and standards. When 
considering partnerships, CLA places great weight on those institutions 
that seek to become NSA/DHS-designated Centers of Academic Excellence 
and those institutions who have or intend to map their curriculum to 
the National Initiative for Cybersecurity Education (NICE) 
Cybersecurity Workforce Framework.
    Question 1b. What are some of the issues holding a school back 
offering these courses already?
    Answer. Community colleges wishing to offer cybersecurity 
programming suffer from several barriers to entry.
    Talent shortage.--Colleges suffer from the very malady that they 
are seeking to treat; a lack of cybersecurity talent. With the 
significant cybersecurity work force shortage and the premium paid for 
talent, community colleges are in stiff competition for qualified 
instructors. Community colleges can achieve success in this area by 
leveraging working professionals in the cybersecurity field as adjunct 
faculty.
    Knowledge shortage.--There is a common misconception that 
cybersecurity is an extension or subset of computer science or 
information technology. Colleges can use 7 functional areas and 32 
specific specialty areas identified in NIST Special Publication 800-181 
to determine programming that best fit their market and competencies.
    Difficulty measuring aptitude.--Since cybersecurity has only been 
recently recognized as an independent vocational area, the traditional 
methodologies of measuring aptitude are only now incorporating the KSA 
associated with the field. As an example, a student that exhibits 
aptitude for coding may not have the aptitude for risk analysis or 
intelligence gathering--both specialty areas in cybersecurity. This is 
complicated by the demographics of community colleges that are 
comprised a much higher percentage of non-traditional students such as 
adult learners and displaced workers seeking quick pathways to reenter 
the work force.
    Question 2. How can small businesses, or businesses that do not 
have the resources, for instance to sponsor cyber competitions, 
participating the cyber work force pipeline?
    Answer. There are two areas where CLA encourages entities with 
limited resources to participate in the development of a cybersecurity 
work force pipeline.
    Sponsoring/Mentoring cybersecurity clubs.--The cost in both time 
and resources to sponsor and/or mentor cybersecurity clubs and 
competitions is low. The annual cost of registering a middle or high 
school CyberPatriot Club is $205 annually and the elementary schools 
are free. Clubs and competitions also exist at the collegiate level.
    Participation in professional cybersecurity-oriented 
organizations.--Individuals and small businesses with limited resources 
can become engaged in numerous organizations with a cybersecurity 
focus. These organizations include the Cyber Leadership Alliance, 
Infragard (partnership between the FBI and members of the private 
sector), EC-Council, ISACA, the Information Systems Security 
Association (ISSA), and the International Association of Privacy 
Professionals (IAPP).
         Question From Chairman John Ratcliffe for David Jarvis
    Question. What type of partnerships does IBM have with universities 
and community colleges?
    IBM has a National footprint; how are schools chosen to become 
partners?
    Answer. IBM partners with universities and community colleges in 
many areas. Our focus on cybersecurity is typically with schools that 
have established, successful cybersecurity programs or that have a 
desire to build and/or create cybersecurity programs. IBM is committed 
to investing in our local communities and has partnered with 
universities and community colleges in locations where we are growing 
our company, to collaboratively focus on skills development and better 
linking education and employment in key technical roles, including 
cybersecurity.
    Listed below are some of our current cybersecurity-related 
partnerships/programs:
P-TECH Model and cybersecurity degrees
    IBM is utilizing the new education model Pathways in Technology 
Early College High School (P-TECH) in the United States and other 
countries specifically for cybersecurity and other technology areas. 
The model has expanded to over 60 U.S. schools and 300 industry 
partners, with the goal of expanding to 80-plus schools in 2017. P-TECH 
connects high school, college, and the world of work to prepare 
students for STEM jobs of the future.
    Designed to serve historically disadvantaged populations, the P-
TECH 9-14 School Model provides U.S. public school students in grades 
9-14 a clear path to post-graduate opportunities that might not 
otherwise be available. IBM, along with the New York City Department of 
Education and The City University of New York, created the first P-TECH 
school in Brooklyn, New York, in 2011. Through P-TECH, students, who 
are not screened for admission, earn both a high school diploma and an 
industry-recognized 2-year post-secondary degree at no cost to them or 
their families. The students are also first in line for jobs with their 
industry partner.
    On the cybersecurity front, IBM is currently working with Excelsior 
Academy at Newburgh Free Academy in New York (a partnership between the 
Newburgh Enlarged City School District, IBM and SUNY Orange Community 
College) and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="23730e7766606b63604251554651">[email&#160;protected]</a> in Baltimore, Maryland (a partnership 
between Carver Vocational Technical High School, IBM and Baltimore City 
Community College) on cybersecurity specific pathway programs.
Community College Skills Accelerator (CCSA)
    IBM is partnering with community colleges to build the skills of 
the future through our Community College Skills Accelerator. This 
program provides access to documented skills roadmaps, access to free 
IBM tools (including platforms, services, and software), access to IBM 
mentorship and subject-matter expertise, including collaboration on 
curriculum review and creation and pathways to employment (including 
internships and apprenticeships).
Competitions, Symposiums, Career Fairs
    IBM supports numerous university-affiliated cybersecurity 
competitions, conferences, and career-related events by providing IBM 
cybersecurity experts as keynote speakers, panelists, product 
demonstrations, and mentors for students in addition to financial 
sponsorship. Recent sponsorships include:
  <bullet> CalPoly Pomona Cyber Security & Awareness Fair: http://
        www.cpp.edu/cyberfair/
  <bullet> HackCU Boulder Hackathon: https://2017.hackcu.org/
  <bullet> National and Regional Collegiate Cyber Defense Competitions 
        (CCDC): http://www.nationalccdc.org/
  <bullet> NYU Cyber Security Awareness Week (CSAW): https://
        csaw.engineering.nyu.edu/
  <bullet> RIT Collegiate Penetration Testing Competition (CPTC): 
        http://www.nationalcptc.org/
Watson for Cybersecurity--University Program
    Last year, IBM announced plans to work with leading universities 
and their students to further train Watson on the language of 
cybersecurity, including: California State Polytechnic University, 
Pomona; Pennsylvania State University; Massachusetts Institute of 
Technology; New York University; the University of Maryland, Baltimore 
County (UMBC); the University of New Brunswick; the University of 
Ottawa and the University of Waterloo. Students working on building 
Watson's corpus of knowledge in cybersecurity will be gaining hands on 
experience in cognitive security. http://www-03.ibm.com/press/us/en/
pressrelease/49683.wss#release
        Question From Chairwoman Virginia Foxx for David Jarvis
    Question. The Federal Work Study program helps students finance 
their postsecondary education, and it is my view that a student's work-
study employment should also contribute to his or her career readiness. 
What barriers currently exist that hinder work-study students from 
gaining cybersecurity skills through employment at IBM?
    Answer. The Federal Work Study program helps students finance their 
postsecondary education, but barriers hinder work-study students from 
career readiness such as gaining cybersecurity skills at IBM. 
Background: The FWS Program provides funds for part-time employment to 
help needy students to finance the costs of postsecondary education. 
Students can receive FWS funds at approximately 3,400 participating 
postsecondary institutions. Hourly wages must not be less than the 
Federal minimum wage. Average grants are approximately $1,642.
    The work that the student performs must be academically relevant to 
the student's educational program if the position is at a private for-
profit employer. The student's work may not displace employees, impair 
existing service contracts, nor fill jobs that are vacant due to 
strikes.
    Barriers: Due to statutory and regulatory barriers and 
inflexibility, students are denied the opportunity to use their work-
study grants to further their career readiness. The barriers include:
  <bullet> Low and Career-Hindering Caps on use of grants for paid 
        internships with private-sector employers in a student's area 
        of study (such as cybersecurity internships with IBM and other 
        private-sector employers)
  <bullet> Restrictions to part-time internships that interfere with 
        full-time placement such as co-operative learning arrangements.
  <bullet> Arbitrary Federally-imposed diversions of work-study funds 
        for non-career work-based learning purposes that meet the 
        definition of ``community service''.
  <bullet> Limitations on funding authorization levels for Federal Work 
        Study and funding allocation based on outdated formulas 
        unrelated to current needs and goals (such as completion rates, 
        costs of attendance, and job location and development 
        programs).
         Question From Chairwoman Virginia Foxx for Scott Ralls
    Question. Since 2010, the National Centers of Academic Excellence 
in Cyber Operations designation has been open to community colleges. 
However, only 54 community colleges have been recognized by the 
Department of Homeland Security or the National Security Agency 
compared to more than 170 baccalaureate institutions. What 
recommendations would you have for NSA and DHS as they work to improve 
their outreach and engagement with community colleges?
    Answer. Since 2010, the National Centers of Academic Excellence in 
Cyber Operations designation has been open to community colleges. 
However, only 54 community colleges have been recognized by the 
Department of Homeland Security or the National Security Agency 
compared to more than 170 baccalaureate institutions. What 
recommendations would you have for NSA and DHS as they work to improve 
their outreach and engagement with community colleges?
    Specifically, because only 54 community colleges have been 
recognized by DHS as certified programs relative to 170 baccalaureate 
institutions, you asked for recommendations to improve outreach and 
engagement by NAS and DHS.
    My reply is that I have a general sense that you will begin to see 
more community colleges become eligible for CAE designation as the 
program matures and as community college programs mature. The process 
is very rigorous, as it needs to be, and requires multiple years of 
program data before colleges are eligible to apply. Because most 
college cybersecurity programs are relatively young in their program 
existence, they would just be reaching the threshold for eligibility 
for the data requirements necessary to attain certification. So in 
other words, I think that the issue is not as much about outreach, 
awareness, and engagement, but more the need for programs to ``mature'' 
before they can attain the requirements for eligibility. I think it is 
good to keep the standards high, and as I indicated in my testimony, 
provide resources as much as possible to DHS and NSA to assist colleges 
in attaining the certification requirements.
    Beside the issue of program maturity of existing community college 
cybersecurity programs for reaching the program standards, there may be 
other issues for community colleges in attaining certification 
standards relative to baccalaureate degree granting institutions: These 
include:
    1. Articulation.--Articulation (i.e. transfer of cybersecurity 
        credits to senior instutions) may be problematic as many 
        community colleges focus on articulating transfer degrees (AS) 
        to partner institutions as opposed to Applied Associate (AAS) 
        degrees. These transfer degrees are often heavy on general 
        education requirements, light on technical courses--too light 
        to accommodate the comprehensive curriculum requirements in the 
        CAE2Y. Unfortunately, many of these programs at the senior 
        institution level then tend to fall down on the job with 
        respect to instilling the hard skills that may be better 
        obtained at the community college level (more training, 
        industry certification-focused). Senior institutions should be 
        encouraged to build applied cybersecurity degree programs into 
        which AAS degrees can be transferred from the community 
        college, but that can be challenging with respect to 
        accreditation issues.
    2. Community Need.--Community colleges serve local communities. 
        Many State systems and districts will require the college to 
        demonstrate for new degree programs that they have a local work 
        force market before a program is approved. [sic] is difficult, 
        if not impossible, for rural communities where there are not IT 
        or Cyber companies.
    3. Resources.--More resources are needed to provide for faculty 
        professional development. This is especially important for 
        areas that aren't located near large cyber areas as they have 
        difficulty finding full-time and adjunct faculty.

                                 [all]




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
